<html>
<title> - STATE DEPARTMENT ANNUAL REPORT ON INTERNATIONAL RELIGIOUS FREEDOM FOR 2000</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





 STATE DEPARTMENT ANNUAL REPORT ON INTERNATIONAL RELIGIOUS FREEDOM FOR 
                                  2000

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
               INTERNATIONAL OPERATIONS AND HUMAN RIGHTS

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 7, 2000

                               __________

                           Serial No. 106-178

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
68-683 CC                   WASHINGTON : 2000



                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE P. RADANOVICH, California     JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

       Subcommittee on International Operations and Human Rights

               CHRISTOPHER H. SMITH, New Jersey, Chairman
WILLIAM F. GOODLING, Pennsylvania    CYNTHIA A. MCKINNEY, Georgia
HENRY J. HYDE, Illinois              ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
CASS BALLENGER, North Carolina       EARL F. HILLIARD, Alabama
PETER T. KING, New York              BRAD SHERMAN, California
MATT SALMON, Arizona                 WILLIAM D. DELAHUNT, Massachusetts
THOMAS G. TANCREDO, Colorado         GREGORY W. MEEKS, New York
            Grover Joseph Rees, Subcommittee Staff Director
         Jeffrey A. Pilch, Democratic Professional Staff Member
             Douglas C. Anderson, Professional Staff Member
                    Marta Pincheira, Staff Associate




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Robert A. Seiple, Ambassador-at-Large for 
  International Religious Freedom................................     4
Firuz Kazemzadeh, Vice Chairman, U.S. Commission on International 
  Religious Freedom..............................................     7
Joseph Assad, Middle East Research Director, Freedom House.......    30
Acacia Shields, Uzbekistan Researcher, Human Rights Watch........    33
Jimmy Zou, Falun Gong practitioner and former detainee in China..    36
Reverend Pha Her, Pastor, Lao Evangelical Church.................    37

                                APPENDIX

Prepared statements:

The Honorable Christopher H. Smith, a Representative in Congress 
  from New Jersey and Chairman, Subcommittee on International 
  Operations and Human Rights....................................    48
The Honorable Joseph R. Pitts, a Representative in Congress from 
  Pennsylvania...................................................    51
The Honorable Robert A. Seiple...................................    53
Firuz Kazemzadeh.................................................    58
Joseph Assad.....................................................    74
Acacia Shields...................................................    80
Jimmy Zou........................................................    86
Reverend Pha Her.................................................    87

 
 STATE DEPARTMENT ANNUAL REPORT ON INTERNATIONAL RELIGIOUS FREEDOM FOR 
                                  2000

                              ----------                              


                      THURSDAY, SEPTEMBER 7, 2000

              House of Representatives,    
                  Subcommittee on International    
                           Operations and Human Rights,    
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 1:35 p.m. in 
room 2172, Rayburn House Office Building, Hon. Christopher H. 
Smith (Chairman of the Subcommittee) presiding.
    Mr. Smith. I would like to call the hearing to order. If 
you could please take your seats.
    Good afternoon. I am very pleased to convene this hearing 
on the occasion of the second annual State Department Report on 
International Religious Freedom. I am particularly pleased that 
our witnesses include Robert Seiple, the Ambassador-at-Large 
for Religious Freedom, and Firuz Kazemzadeh, the Vice Chairman 
of the U.S. Commission for International Religious Freedom, as 
well as four private citizens who have been victims of or 
witnesses to religious persecution in countries around the 
world.
    The creation of the Commission and the office of the 
Special Ambassador-at-Large as well as the institution of the 
annual religious freedom reports are among a number of measures 
provided by Congressman Frank Wolf's landmark legislation on 
international religious freedom, which was marked up by our 
Subcommittee in 1997 and enacted by Congress in 1998. All of 
these measures represent important steps toward helping 
millions of people around the world who are persecuted simply 
because they are people of faith. But the reports themselves 
clearly demonstrate that we need to do more.
    This year's annual report, like last year's, does an 
admirable job of stating most of the unpleasant facts about 
religious persecution in countries around the world. 
Nevertheless I have two concerns about the reports. First, they 
sometimes seem to deflect attention from egregious government 
actions by surrounding them with exculpatory introductions or 
obfuscatory conclusions. Second, the best statement in the 
world about religious persecution is unlikely to do any good if 
it is not followed up by forceful or coherent policy for ending 
such persecution.
    In general, this year's Annual Report on International 
Religious Freedom is clear and honest about denials of 
religious freedom by governments with which our own government 
enjoys friendly relations, such as Saudi Arabia, France, 
Austria, and Belgium. But somehow the statements become less 
clear in the reports on governments with whom we are trying to 
improve relations such as Communist governments of North Korea, 
Laos, and Vietnam. For instance, the report on Laos states that 
religious persecution was ``largely due to the actions of a few 
party cadres in a few provinces,'' whom the central government 
was ``apparently unable to control.'' similarly the report on 
Vietnam discusses the Vietnamese Government's policy of 
recognizing certain ``official religions'' as though it were 
evidence of a degree of religious tolerance, rather than part 
of a systematic policy to force believers into phony 
government-controlled religious organizations in order to 
facilitate the destruction of genuine religions that existed in 
Vietnam long before the Communist government came to power.
    A careful reading of these reports suggest there was a 
struggle in the State Department between people who wanted to 
tell it like it is and those who did not want to say anything 
that would set back the relationship between the United States 
and whatever odious regime happens to be in power in the 
country to which they were posted. Nevertheless, on balance the 
annual report is thorough, honest, and strong.
    My deeper concern, however, is that this report--like the 
annual Country Reports on Human Rights Practices--may not have 
any practical effect on U.S. policy. This is particularly sad 
because the International Religious Freedom Act provided an 
important mechanism for bringing about such effects. The law 
provides that on or before September 1 of each year, the same 
day the annual report is due, the President shall review the 
status of religious freedom in each foreign country to 
determine which governments have engaged in or tolerated 
particularly severe violations of religious freedom during the 
preceding 12 months. If the President makes that finding of 
fact about a particular country, that its government has either 
engaged in or tolerated violations that are particularly 
severe, he is bound to designate that country as a country of 
particular concern for religious freedom. He must then either 
impose diplomatic, political or economic sanctions against the 
government of that country or explain why he does not intend to 
do so.
    Last year the President designated only five countries of 
concern, along with two de facto authorities that are not 
recognized by the United States as national governments. In 
choosing these seven regimes--Burma, China, Iran, Iraq, Sudan, 
Serbia, and the Taliban--the President made only the easy 
choices. Six of the seven are already under severe sanctions 
for reasons other than religious persecution. The seventh, the 
Government of Communist China, represented a tough choice for 
the Administration, but the facts were so clear that it is 
difficult to imagine any other outcome.
    At last year's hearing, Ambassador Seiple, I urged you to 
take a close look at several other countries whose governments 
clearly engaged in religious persecution that is particularly 
severe, such as Vietnam, North Korea, and Saudi Arabia. Later, 
in July of this year, the Commission on International Religious 
Freedom wrote to the Department and urged that Laos, North 
Korea, Saudi Arabia, and Turkmenistan be added to this year's 
list. The Commission's letter also made clear that a strong 
case could be made for the inclusion of India, Pakistan, 
Uzbekistan, and Vietnam.
    Mr. Ambassador, in light of these recommendations and of 
the clear evidence in this year's report of particularly severe 
violations in all of these countries, I am deeply disturbed by 
reports that the Administration will not designate a single 
country of particular concern this year beyond the seven that 
were designated last year. I hope you can provide us with some 
insights into the Administration's thinking on these 
designations.
    Mr. Ambassador, as you know, totalitarian regimes often 
come down harder on religious believers than on anyone else. 
This is because nothing threatens such regimes more than faith. 
As political philosophers from Thomas Jefferson to Gandhi have 
made clear, the strongest foundation for the absolute and 
indivisible nature of human rights is the belief that these 
rights are not bestowed by governments or international 
organizations, but by God. So our government needs to 
understand that human rights policy, and particularly our 
policy toward the denial of religious freedom, must be a top 
priority in U.S. foreign policy, not a footnote and certainly 
not an afterthought. We must recognize that good and evil 
really do exist in the world, and we must act on the 
consequences of that recognition.
    I would like to yield to my good friend from Pennsylvania 
for any comments.
    [The prepared statement of Representative Smith appears in 
the appendix.]
    Mr. Pitts. Thank you, Mr. Chairman.
    I will submit my entire testimony in writing for the 
record. I would like to make a few comments.
    First of all, thank you for holding today's timely hearing 
on the State Department's Annual Report on International 
Religious Freedom. Continued reporting on this issue is vital 
as thousands of people around the world suffer at the hands of 
their governments or communities simply for the peaceful 
practice of their religious beliefs. In Saudi Arabia, in China, 
Indonesia, Sudan, Vietnam, Laos, Burma, Pakistan, India, 
Afghanistan, Morocco, the Maldive Islands, Egypt, countries in 
Central Asia, even France, individuals and groups experience 
harassment, sometimes physical harm, imprisonment and at times 
even death because of their beliefs.
    Earlier this summer I travelled to Indonesia and Pakistan 
to meet with people who experienced persecution for their 
faith, and the stories that we hear are heartbreaking, and I 
comment on some of those in my testimony.
    Regarding the report, some of the assertions in this report 
are controversial, such as whether or not there has been 
noteworthy improvement regarding religious freedom in Sudan, 
Laos, Vietnam, Saudi Arabia and Egypt. Government actions that 
initiate increased religious freedom are appreciated. However, 
governmental statements or actions often are not translated 
into reality on the ground. In Sudan, where a religious 
genocide is ongoing and reports continue to flood my office 
about the government bombing of schools and churches in the 
south, the report does not convey an ongoing sense of the 
genocide against the Christian animist population in the south. 
In Egypt the noteworthy improvements cited do not appear to 
outweigh the tragic violence experienced against the Copts 
experienced in a year covered by the report.
    I want to commend the State Department officials who worked 
to research and compile these reports. I look forward to 
continued improvement on access to and reporting of religious 
liberty violations.
    I would like to add a special thank you to Ambassador 
Robert Seiple for his service to our Nation and to the 
individuals around the world as he leaves his post next week. I 
certainly wish you all the best in your life after government.
    Thank you, Mr. Chairman.
    [The prepared statement of Representative Pitts appears in 
the appendix.]
    Mr. Smith. Thank you very much, Mr. Pitts.
    Mr. Pitts. I would like to introduce our first two very 
distinguished witnesses beginning with Ambassador Robert 
Seiple, who has served as the first U.S. Ambassador-at-Large 
for International Religious Freedom since May 1999. Previously 
he served as principal advisor to the President and Special 
Representative to the Secretary of State for International 
Religious Freedom. Before his tenure in the executive branch, 
Ambassador Seiple was president of World Vision, President of 
Eastern College and Eastern Baptist Theological Seminary, and 
vice president for development at Brown University.
    We will next hear from Dr. Kazemzadeh--I am sorry, Doctor--
who is the Vice Chairman of the United States Committee on 
International Religious Freedom. Until recently he also served 
as secretary for external affairs of the National Spiritual 
Assembly of the Baha'i in the United States. He is also a 
professor emeritus of history at Yale University, where he 
taught Russian history for more than 35 years.
    Ambassador Seiple, you may begin.
    Mr. Seiple. Thank you very much.
    Mr. Smith. Mr. Ambassador, if you wouldn't mind suspending, 
although I didn't hear the bells, there is a vote on the child 
enforcement amendment on the floor right now. So if you do not 
mind, we will suspend for a few minutes and then reconvene the 
hearing. I am sorry.
    [Recess.]
    Mr. Smith. Let me apologize for that delay, and I would 
like to resume the hearing now.
    Ambassador Seiple, if you could begin.

    STATEMENT OF ROBERT A. SEIPLE, AMBASSADOR-AT-LARGE FOR 
                INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Seiple. Thank you very much.
    In the intervening screening time, I was able to find the 
button that gives us a higher voice level.
    Mr. Chairman and Members of the Committee, I want to thank 
you for holding this hearing, and I am honored once again to 
appear before you.
    As I prepare to depart the position of Ambassador-at-Large 
after 2 years of service, I want to say to you, Mr. Chairman, 
that the Office of International Religious Freedom has not had 
a better friend. You and your staff, in particular Mr. Rees and 
Mr. Anderson, have done so much to make our mission a success 
that I would be remiss in not thanking all of you publicly. I 
do so not only on behalf of the International Religious Freedom 
Office, but also on behalf of those around the world for whom 
your efforts to promote religious liberty have provided redress 
and hope.
    Mr. Chairman, I have two goals this afternoon. The first is 
to formally present the second Annual Report on International 
Religious Freedom and to inform you of the Secretary's decision 
with respect to the countries of particular concern under the 
International Religious Freedom Act. The second is to give you 
my sense of where things stand with respect to religious 
freedom worldwide.
    During the course of the past 12 months, my office has 
monitored carefully the status of religious freedom worldwide. 
We have traveled to many of the countries in which religious 
liberty is at risk. We have had access to the large and growing 
volume of press and NGO reporting on religious freedom. Last, 
but perhaps most importantly, we have reviewed the excellent 
reporting from the U.S. missions abroad.
    U.S. diplomatic reporting on religious freedom has always 
been good, but it has become better under the tenure of 
Secretary Albright, who made it a point of emphasis soon after 
her arrival in the Department. Some people being the day 
reading the New York Times and the Wall Street Journal. We 
would read reports from some of the finest minds, patriots, 
folks who want to serve their country, who are part of that 
Foreign Service occupying those posts around the world.
    This year's report covers the period from July 1, 1999, 
through June 30, 2000. It contains 194 country chapters, an 
introduction and an executive summary. This year the executive 
summary highlights the improvements in religious freedom. We 
have provided an improvements section because it is prescribed 
by the act, but also because we think it is terrifically 
important that the United States encourage improvements.
    I am proud to present the second Annual Report, all 1,500 
pages of it, on International Religious Freedom.
    Now, a word on designations under the act, something that 
you had brought up.
    Mr. Chairman, as you know, the IRF Act has established a 
very high standard for this designation. In order to be 
designated, the government of the country must have engaged in 
or tolerated particularly severe violations of religious 
freedom. As we apply the act's criteria in deciding what action 
to take, we try to place them in the context of diplomacy. Is 
diplomacy working? Are there trends in one way or another? Is a 
particular action likely to help or hinder our diplomatic 
efforts to improve the situation? None of these is 
determinative, but all are important as we decide how to 
proceed with any given country.
    With respect to the Secretary's decisions this year, let me 
first note that she has decided to redesignate the five 
countries designated last year. They are Burma, Iran, Iraq, 
Sudan and China. In addition, she is renewing her 
identification of Serbia and the Taliban of Afghanistan as 
particularly severe violators. Neither constitutes a country as 
envisioned by the act.
    During the course of the year, my office reviewed the 
records of all other countries which we believe might approach 
the designation standard. After carefully reviewing these 
records, and I would say also taking the recommendation of the 
independent Commission as well, and looking at everything we 
had to work with, I have concluded that no other countries 
reached that standard. I have reviewed this matter with the 
Secretary, and she has approved my recommendations. Let me just 
add that they were my recommendations, that it was not a split 
between the Secretary of State or anyone else in the State 
Department in our office. These recommendations came from our 
office. And I would obviously be happy to answer any questions 
when we get to that part on any one of the countries that we 
looked at.
    Let me give you a brief assessment of my office's work and 
a few thoughts on the status of religious freedom. I believe 
that we are implementing the terms of IRF Act of 1998 in an 
effective way, faithful to the intent of the Congress, the 
President and the Secretary of State. The Office of 
International Religious Freedom is well integrated into the 
Bureau of Democracy, Human Rights and Labor, thanks in great 
part to my friend Assistant Secretary Harold Koh.
    The process of producing the annual report has itself 
played a major role in integrating our office and the issue 
into the mainstream of U.S. foreign policy. The report has 
become a focal point for discussion of religious freedom and 
has dramatically increased public awareness of our mission.
    Our mandate has also caused us to reach out to American 
religious communities. I am very proud of our outreach program 
to the Muslim community. I consider this program a success, and 
my office intends to expand it to other American religious 
communities.
    My ex officio membership in the U.S. Commission on 
International Religious Freedom has been a productive and 
pleasant one. The Commission brings a separate set of eyes and 
a sharp focus to our common task of promoting religious 
freedom.
    With the support of Assistant Secretary Koh, my office has 
grown to a staff of five officers other than myself, and we are 
in the process of recruiting three more. Their workload is 
heavy and growing, and it involves some of the most 
invigorating work in the field of diplomacy. We are met almost 
daily with a new challenge, a refugee family fleeing religious 
persecution and needing our help, a new draft law that 
restricts minority religions, new arrests, deportations, or 
executions of religious people, and we have had some small but 
important victories.
    Our office has had the opportunity to improve the lives and 
fortunes of a few families and individuals suffering for their 
religious beliefs. These are the things, Mr. Chairman, that 
give us hope and make us even more determined to persevere in 
the promotion of religious freedom.
    But in all candor, I must tell you have that we have made a 
very modest beginning in attacking the root causes of religious 
persecution and discrimination. The problem has no simple 
solution. The annual report provides a measure of the problem 
and shines a spotlight on it. On balance it is a critical tool 
in our goal of promoting religious freedom, but to get at the 
root causes of persecution, we must go beyond the spotlight, 
the designations and the sanctions. We must convince 
governments that religious belief is not something to be 
feared, but a source of social and cultural strength. We must 
build bridges between religions, attacking the sources of fear 
and distrust that feed violence.
    We must encourage believers of all stripes to summon the 
best from their traditions. Every world religion, Mr. Chairman, 
has some example of the Golden Rule. For example, the 
monotheistic religions believe that every human being, 
religious or not, believer or infidel, is created in the image 
of the Creator. To defile another human being, to destroy a 
person's dignity, to live without respect for human life, these 
are attacks on the very nature of things and the divine source 
of that life.
    Every religious tradition is plagued by men and women who 
exploit and abuse the sacred, expropriating it as a divine 
license for persecution and violence against others. In their 
hands religion becomes a mobilizing vehicle for nationalist and 
ethnic passions. We have seen this outrage played out on stages 
from Afghanistan to Serbia to Sudan. We must not view the 
actions of such imposters and hypocrites as representative of 
any true religion. Religion can be, ought to be, a source of 
reconciliation and hope, of unity and respect.
    The authors of our Constitution knew that religious freedom 
touches upon the most fundamental and universal attributes of 
humanity, the quest for the ultimate gain and purpose that is 
shared by every human being. In this, we are truly one human 
family.
    So, Mr. Chairman, I am proud to have been the first 
Ambassador-at-Large for International Religious Freedom. I am 
satisfied that our office has done its job well, not only 
complying with the law, but in laying the groundwork for future 
progress as well. When all is said and done, our work will be 
judged not by the denunciations we make or the sanctions we 
impose, but by the people we help. As far as I am concerned, 
that endeavor lies at the heart of what it means to believe.
    Thank you for having me here today. And obviously, I will 
be happy to take any and all questions.
    [The prepared statement of Mr. Seiple appears in the 
appendix.]
    Mr. Smith. Thank you very much, Mr. Ambassador. I look 
forward to hearing your responses to the questions.
    We will be joined momentarily by a few other Members, 
including the Ranking Member, Cynthia McKinney.
    I would like to invite Dr. Kazemzadeh, if you would, 
present your testimony.

 STATEMENT OF FIRUZ KAZEMZADEH, VICE CHAIRMAN, U.S. COMMISSION 
               ON INTERNATIONAL RELIGIOUS FREEDOM

    Mr. Kazemzadeh. Thank you, Mr. Chairman.
    My name is Firuz Kazemzadeh. I am honored to serve as Vice 
Chairman of the U.S. Commission on International Religious 
Freedom. I wish to thank the Subcommittee for inviting a 
representative of the Commission to testify before you today on 
the Annual Report on International Religious Freedom. I ask 
that my complete written statement be made part of the hearing 
record. I also beg your permission to leave early after the 
termination of this panel so I can catch a plane home to 
California.
    Mr. Smith. Without objection.
    Mr. Kazemzadeh. Thank you.
    The Annual International Religious Freedom Report is 
important to keep religious freedom high on the foreign policy 
agenda and an important tool to promote religious freedom 
abroad. It is the yardstick with which to measure our progress 
in meeting the goals of the statute.
    I would like to take a moment now to speak about Ambassador 
Seiple. The Commission commends the work that Ambassador Seiple 
and his staff have put not only into the annual religious 
freedom report, but also their substantial efforts throughout 
the year to keep religious freedom on the foreign policy 
agenda. Ambassador Seiple has also made a significant 
contribution to the work of the Commission on which he has sat 
as an ex officio nonworking member, and we value him very much 
as our colleague.
    The Commission will strongly urge the next President to 
move quickly to fill the vacancy with a person as knowledgeable 
and as distinguished as Ambassador Seiple. It will also urge 
the new Congress to impress upon the new President the 
importance of doing so. As the Commission noted in its own 
first annual report released in May, as important as the report 
itself is the impact that its preparation has had on the State 
Department and on our embassies. This year's report generally 
shows more complete understanding of religious freedom issues 
and extensive fact-finding and verification. It reflects hard 
work on the ground.
    In other respects as well this year's report is an 
improvement over last year's. And I note with pleasure that 
some of the recommendations the Commission made in its annual 
report appear to have been adopted by the Department. Each 
country report now has an introduction, generally identifying 
the most significant religious freedom problems in that 
country. There are separate subsections that detail relevant 
law. Our review of the Department's instruction table sent to 
the embassies earlier this year also shows that the Department 
incorporated many of the Commission's suggestions in what 
information is solicited from embassy officials.
    For example, the report focuses in its dozen or so pages 
relating to Sudan mainly on the policies and practices of the 
Sudanese Government with respect to religious freedom per se, 
giving only a page to atrocities being committed as part of the 
civil war, including, for example, aerial bombing of hospitals 
and schools, abduction of women and children, and the burning 
and looting of villages. There are, moreover, significant gaps. 
The report fails to describe the pivotal role that oil 
extraction is having, especially in enhancing the ability of 
the Government of Sudan to continue in its criminal behavior. 
Similarly it does not focus on the delivery of humanitarian 
aid; for instance, the long-standing refusal of the Sudanese 
Government to allow humanitarian aid to reach some regions.
    Another notable problem is that this year's report includes 
a section in the executive summary entitled ``Improvements in 
International Religious Freedom,'' which are also reported in 
the individual country chapters. The Commission believes that 
the reporting of such ``improvements'' must be carefully 
handled in order to avoid misrepresentations of the conditions 
of religious freedom. Labeling what are really positive 
developments, and such positive developments deserve to be 
noted, as ``improvements'' confounds positive steps with real 
and fundamental progress in eliminating religious persecution. 
The mention of such positive steps in the executive summary can 
overshadow an overall negative situation. The executive summary 
should be the place to report on fundamental lasting changes in 
the protection of religious freedom, as may be the case in 
Azerbaijan, but not particular events that may be positive. 
Severe persecutors can make a positive gesture without 
improving the overall conditions of religious freedom. On 
occasion they do it to deflect criticism and to misguide 
foreign observers.
    In the case of Sudan, for instance, the positive 
developments highlighted in the executive summary are changes 
of a shallow nature, and not the type of developments that 
would signal a change in the regime under which religious 
believers suffer horribly.
    Another example is Laos, where the release of religious 
prisoners, in itself a welcome event, is characterized in the 
executive summary as significant improvement. But the Laos 
section of the report noted that, ``the government's already 
poor record for religious freedom deteriorated in some 
aspects.'' these contradictory messages are found in the 
report's discussion of Vietnam as well.
    The Commission is pleased that the State Department has 
listed for a second year Burma, China, Iran, Iraq and Sudan as 
``countries of particular concern'' [CPCs] as well as the 
Taliban regime in Afghanistan and the Government of Serbia. 
This year's annual report affirms that the conditions in those 
countries have not changed sufficiently so as to warrant a 
change in designation. The Commission is disappointed, however, 
that the Secretary of State has not named Laos, North Korea, 
Saudi Arabia and Turkmenistan as CPCs. On July 28, the 
Commission wrote to the Secretary concluding that the 
governments of each of these four countries have engaged in 
particularly severe violations of religious freedom and thus 
meet the statutory threshold for designation as CPCs. I have 
attached this letter to my written statement for inclusion in 
the hearing record. The Commission's conclusion was based on 
the information that was available to us at that time. The 
information contained in the 2000 annual report only affirms 
that these countries should be designated as CPCs.
    The label ``country of particular concern'' is important. 
It brings into the spotlight the egregious violators. But the 
act of labeling is only one aspect of the statute. The statute 
requires policy responses and, again, the International 
Religious Freedom Report is a report on U.S. actions to promote 
religious freedom and not only a report on facts and 
circumstances.
    I would like to focus for a moment on actions taken in 
response to the CPC designation, and then speak more broadly to 
U.S. policy initiatives in certain countries.
    Nowhere in the report did the State Department mention the 
sanctions it may have imposed as a result of a country's 
designation as a ``country of particular concern.'' This is 
consistent with State's previous practice. It has, to our 
knowledge, done nothing to publicize the sanctions imposed 
under IRFA and at times appears to go out of its way to avoid 
mentioning them. In the cases of Sudan and China, the sanctions 
the State Department identified are inadequate and ineffective. 
Regarding Sudan, the Department stated last October that, ``In 
order to satisfy the sanction requirements of IRFA, the 
Secretary of State also uses the voice and vote of the United 
States to oppose any loan or other use of funds of 
international financial institutions to or for Sudan pursuant 
to the International Financial Institutions Act.'' More 
effective actions that the Commission has recommended include 
closing U.S. capital markets to companies that participate in 
the Sudanese oil fields, and taking steps to end Sudan's 
ability to control foreign food aid and use it as a weapon of 
war. Regarding China, the Department stated that the Secretary 
of State restricts exports of crime control and detection 
instruments and equipment. It is difficult to believe that this 
sanction sends a strong message to Beijing on religious 
freedom.
    I would also note that under IRFA, the President must take 
action (or issue a waiver of the requirement to take such 
action) with regard to all countries the government of which 
engages in or tolerates violations of religious freedom, and 
not only CPCs. These actions do not appear to be so recorded in 
the annual report.
    In general, the report shows that U.S. Embassy personnel in 
a number of countries have been working to raise the issue of 
religious freedom with their foreign counterparts. Embassy 
personnel have also made inquiries and sought to monitor the 
legal proceedings of some religious detainees. Ambassador 
Seiple and his staff have traveled widely to reinforce the 
message of the importance of religious freedom to the United 
States.
    The Commission applauds these actions. However, progress in 
the promotion of religious freedom also requires that steps be 
taken at the highest levels of interaction between the United 
States and foreign governments. Religious prisoners and 
persecution must be prominently raised in virtually every 
meeting between American diplomats and violator governments.
    As a parenthetical point, I would like to note that in the 
executive summary of this year's report, actions taken by the 
Commission itself are listed in the section on what the U.S. 
Government has done with respect to a number of countries. This 
practice should not be continued. The Commission is not 
empowered by Congress to implement U.S. foreign policy, but to 
make policy recommendations. Congress has required the 
Commission to report on its activities separately from the 
State Department. Including Commission actions in the annual 
report may blur the distinction between it and the State 
Department in the mind of the American public, NGO's, victim 
communities and foreign governments.
    The report shows a number of countries where the 
deterioration in the conditions of religious freedom have not 
resulted in an adjustment of U.S. policy. In the case of China 
the report bluntly states, and rightly so, that the Chinese 
Government's attitude toward religious freedom has 
deteriorated, and persecutions of several religious minorities 
has increased. The report reflects the situation in almost 
excruciating detail. Arrests of Falun Gong and Zhong Gong 
practitioners and Christians worshipping in unregistered groups 
have accelerated dramatically. At least eight Uigher Muslims 
from the Xinjiang Autonomous Region have been executed in June 
and July on charges of splitting the country. The receptivity 
of the Chinese Government to the United States concerns about 
religious freedom in China also appears to have deteriorated. 
The Chinese Government has refused to reinstate official 
bilateral dialogue on human rights and religious freedom. 
Government officials have refused to meet with U.S. Embassy 
officials who intended to raise religious freedom issues with 
them. The Department's special coordinator for Tibet and a 
member of her staff were denied visas for travel to Tibet. It 
is distressing that the Administration and the majority of the 
House of Representatives is willing to overlook all of this in 
pursuing its campaign for permanent normal trade relations 
status with China.
    Turkmenistan is another example of where the State 
Department concludes that conditions of religious freedom have 
worsened, yet the reported U.S. actions do not appear to 
reflect any change in U.S. policy. A promise by President 
Niyazov to the State Department to allow minority religious 
groups to register, thus legalizing their activity, has yet to 
be realized.
    A third example is France where the report describes in 
detail some disturbing recent events that threaten the 
religious freedom of minority religious groups. In particular 
the National Assembly in June of this year passed the bill 
targeting the so-called sects for dissolution and establishing 
a new crime of mental manipulation. It is now pending in 
France's Senate. However, a comparison of this year's report on 
what the United States has done, with the last year's report on 
what the United States did, shows that despite worsening 
conditions, the United States appears to have done less.
    The report also illustrates a number of instances why U.S. 
policy does not appear to be in line with the gravity of 
religious freedom problems in a particular country.
    The report on the Sudan does not display any coherent or 
concentrated plan of the U.S. Government to deal with the 
situation. We have not seen evidence of the sort of 
concentrated and coherent policy that has any hope to succeed. 
Consequently in May of this year as a key part of our 
recommendations on Sudan, we laid out a specific 12-month plan 
of action for the President, urging particularly that he 
personally launch a vigorous campaign to inform the world of 
Sudan's war crimes. In addition, the Commission has raised with 
the State Department and the National Security Advisor the 
issues of delivery of humanitarian aid in the face of continued 
interference by the Government of Sudan and of oil extracting 
enhancing the ability of the Sudanese Government to prosecute 
the war.
    The Commission has asked Mr. Berger to investigate reports 
that the Commission received from credible sources--Anglican 
and Catholic bishops in the Sudan--that U.N.-provided 
humanitarian aid for Sudan, including U.S. aid, is being 
manipulated to force religious conversions among the country's 
displaced and needy religious minorities. I have attached a 
copy of the Commission's August 14, 2000, letter to the 
National Security Advisor to my written statement.
    With regard to North Korea, the report notes that the 
United States does not have diplomatic relations with this 
country. Nevertheless the United States does have a policy with 
respect to North Korea, and one that has undergone significant 
change in the last year, including the announcement of the 
lifting of certain sanctions against the country. We are not 
taking a position on the wisdom of those actions; however, it 
is apparent from the report that human rights and religious 
freedom have not played a role in the development of policy 
with respect to one of world's worst religious freedom 
violators.
    The 2000 annual report states a sobering fact. Much of the 
world population lives in countries in which the right to 
religious freedom is restricted or prohibited. As the richest 
and most powerful nation on Earth, the United States can do 
significantly more to vindicate this right abroad. As the 
freest nation on Earth, it must do more.
    On behalf of the U.S. Commission on International Religious 
Freedom, I thank you again, Mr. Chairman, for the invitation to 
present the Commission's perspective.
    [The prepared statement of Mr. Kazemzadeh appears in the 
appendix.]
    Mr. Smith. Dr. Kazemzadeh, thank you very much for your 
testimony.
    I would like to you recognize my good friend, the Ranking 
Democrat on the Subcommittee, Ms. McKinney.
    Ms. McKinney. Thank you, Mr. Chairman.
    I do have a statement that I would like to submit for the 
record.
    Mr. Smith. Without objection, it is so ordered.
    Ms. McKinney. I also have an observation that I would like 
to put forward at this time and perhaps hear from the 
witnesses.
    I am concerned as it appears to me, and I am not sure not 
to me alone, that as we go about looking at other countries in 
the world and basically pointing a finger on what they are 
doing right and what they are doing wrong, mostly what they are 
doing wrong, I note that Secretary Albright has called this 
grim reading, and we do the same thing with our annual human 
rights report where we basically tell friends and our foes 
alike that they need to do a better job in protecting human 
rights and in protecting religious freedoms in this particular 
point, but we rarely take a look at ourselves. And on the issue 
of human rights and on the issue of religious freedom, I do 
have one concern that I just wanted to put out there.
    It appears to me that we have here in this country passed a 
law that has resulted in the imprisonment of eight people, and 
it appears to me to be solely because of their religion. I am 
talking about the secret evidence law, and the appearance that 
here in this country we have declared a war on Islam. And I 
know if it appears to me to be that way, I am sure it appears 
to be that way around the world. And while we point our finger 
at other people, I think we better take a good close look at 
ourselves and the way we treat our religious minorities here in 
the country, or else I fear that it really could come back to 
haunt us.
    With that, Mr. Chairman, I will relinquish my time, and I 
look forward to the question-and-answer period.
    Mr. Smith. Thank you, Ms. McKinney.
    Mr. Payne.
    Mr. Payne. Thank you very much, Mr. Chairman.
    Let me say I applaud you for this very important annual 
hearing of the international religious freedom committee. I 
would like to also commend Ms. McKinney for her steadfastness 
as relates to human rights around the world.
    I will not make an opening statement, but will wait until 
the questioning period, and at that time I will make a question 
or two. Thank you very much, Mr. Chairman.
    Mr. Smith. Thank you, Mr. Payne.
    Let me begin with an observation.
    Obviously passing this legislation was extremely difficult. 
Ambassador Seiple, you might recall the near Herculean efforts 
that the Subcommittee had to go through in order to get the 
bill passed over the various hurdles. I remember part of the 
objections were actually coming from the Administration, the 
Secretary of State and her Assistant Secretary of State John 
Shattuck continually told us, almost like a mantra, that this 
would establish a hierarchy of human rights. On October 23, 
1997, Secretary of State Madeleine Albright said, ``Although 
well-intentioned, this bill'' talking about the religious 
freedom bill, ``would create an artificial hierarchy among 
human rights with the right to be free from torture and murder 
shoved along with others into second place.''
    All of us objected vigorously to that very bogus 
characterization of what we were intending to do at the time. 
Just as when many of us opposed apartheid, as I think everyone 
did, I also believed that sanctions were a very useful remedy 
and I supported--despite the fact that many in my party did 
not--a very strong sanctions regime. That didn't mean that 
racism was somehow being put above other human rights. It just 
suggested that racism needs to be spotlighted when it is so 
egregious, when it is systematic, and when it is state-
sponsored.
    The same can be said for what we did on Jackson-Vanik when 
we risked superpower confrontation in order to provide a 
relief, a safety net, a lifeline, if you will, to Soviet Jews 
who were being repressed and the very few others who got out as 
a result of that linkage between MFN and human rights or 
immigration issues with regard to the former Soviet Union. 
There was no hierarchy of human rights established. We 
emphasized one. Hopefully all the others moved along. And I 
think it is just fair to note that there was considerable 
opposition.
    I say this because the facts will bear this out. On page 18 
of the executive summary, it is pointed out, Ambassador Seiple, 
that ``the Ambassador,'' you, ``has begun the task of 
integrating U.S. policy on religious freedom into the 
mainstream of U.S. foreign policy and at the same time into the 
structure of the Foreign Service and the Department of State.'' 
Hallelujah. That is exactly what we were trying to do with the 
creation of your office, and all of the like-minded aspects of 
the bill. It was meant to say that religious freedom is 
important. It doesn't trump any other freedom, but it ought to 
be emphasized because it has not had its rightful place at the 
table.
    I want to thank you. Looking at your itinerary over the 
last year or so, you have been a very activist Ambassador. We 
are very grateful for the work you have done. We know that when 
you march into a capital and you speak to various people, 
including Presidents, Prime Ministers, and dictators, that you 
do speak from the heart, you speak with authority, and we are 
grateful for that.
    Having said that, just a few points with regard to the 
policy and where we are now.
    You mentioned a moment ago about the designations of the 
countries being within the context of diplomacy, and I would 
just like to note that section 402(b)(1) of the International 
Religious Freedom Act of 1998 requires the President to 
designate each country, the government of which has engaged in 
or tolerated what it terms particularly severe violations of 
religious freedom. According to section 3 of the law, such 
violations include torture or other cruel treatment, prolonged 
detention without charge, causing the disappearance of persons 
by abduction or other clandestine detention or other flagrant 
denials of rights to life, liberty or the security of persons.
    When I look at the list, and again I am glad that we do 
have a list, but again I think as the good doctor just 
mentioned a moment ago, as the Commission did in its letter, 
there are other countries that fit that designation. It seems 
to me that there was a misreading of the law when it comes to 
the so-called ``context of diplomacy.'' That should be all 
about the response to, not the inclusion of, a country. 
Diplomacy should address the question ``is it better to push or 
use this carrot or stick,'' but not ``how do you get on the 
list in the first place.''
    So I note with regret and sadness that countries like Laos, 
North Korea, and Saudi Arabia, and Vietnam for example, were 
not included. It seems to me that the record clearly should 
have placed them there. And North Korea, where apparently there 
have actually been executions, should have been a no-brainer. 
Yes, we have difficulty with access to the country in question, 
but certainly the evidence and the reporting that has come out 
indicates presumptively they should have been put on the list.
    So I would ask you if you would, to speak further to this 
issue of ``context of diplomacy.'' And, Doctor, if you could 
speak to that as well. It seems to me there is a misapplication 
of the statute going on. I don't think it is done with bad 
intentions. I think you are very faithful to your principles, 
but it seems to me that should be the response. What is the 
best way to deal with Saudi Arabia? That is a different issue 
than going on the list, which should be a matter of what the 
evidence is on the ground.
    Otherwise, what is the purpose of the waiver, which was 
very, very generous? That was a point that we worked very 
closely with the Administration on to make sure the waiver was 
as wide as it could possibly be, giving the President maximum 
flexibility when it comes to prescribing a certain course of 
action.
    Ambassador.
    Mr. Seiple. This is a very interesting comment, and I think 
this is a very interesting discussion to have. You were right 
in terms of the parts that were read relative to the mandate 
under the legislation.
    There is also something, however, that runs throughout the 
legislation, inherent in the legislation, if I can use the 
phrase of some other people, a ``do no harm clause'' that we 
also need to take into account. In other words, if we violate 
the spirit of the legislation by performing a designation or 
creating a sanction in our diplomacy in any way, shape or form, 
we violate what the act was meant to be.
    So if our public presentation of a finding, for example, is 
going to make it much more difficult for people in that host 
government country to have freedom--I mean, it is easy for us 
here in the confines of the last remaining superpower to want 
to wield more stick than carrot, but we serve an awful lot of 
people in our primary constituency who have nothing but sticks 
every day, and if we are going to make it more difficult for 
them, do we not violate the spirit of the act which essentially 
says do no harm?
    Now, granted, once you take that as an assumption, you get 
into some very subjective areas of interpretation, and, rightly 
or wrongly, let me give you a couple of examples of how we 
played this out.
    There are some cases where we asked our sources whether we 
could reveal what is going on, whether we can go to the next 
step and do a designation and a sanction.
    And because these are people that are on the ground that 
are bearing the brunt today, we feel some obligation to listen 
to those voices. We also look at what is applied on the 
diplomatic side. In Turkmenistan, for example, we have a number 
of things that are still in play. Are they going to reduce the 
number required for registration? Right now it is 500. Only 
Muslims and Russian Orthodox qualify. Are they going to reduce 
it? We have had this discussion.
    We have had the discussion of the repayment compensation to 
the Adventist for the destruction of the church. We had a 
discussion on amnesty for people of conscience. We also saw in 
April where this president came out with a decree that 
essentially said we are not going to disrupt private worship. 
This was a huge boom for the Jehovah's Witnesses who were being 
harassed, for the Baha'is who were being harassed, for all the 
minority faiths there. So there was some reason to look at what 
was in play and what we were asking over a period of time to 
have done.
    Now, again you have a subjective judgment to be made when 
how much is enough time before you bring down the hammer. But, 
another part of this legislation is the clear sense that we 
should be in the business of promoting religious freedom. This 
is one of the reasons we have that section on noteworthy 
achievements. My goodness let's have some integrity when 
somebody does something right.
    We have caveats before this section. We have said that this 
does not mean that we can all walk away because they have done 
something right. In many cases, they are the worst offenders. 
Significant improvement sometimes comes from people who are the 
worst offenders. But it lacks integrity if we always use the 
stick and say you are doing this wrong and that wrong and we 
never give anybody credit for what they are doing right. It 
makes it much more difficult to have the conversations that are 
going to take place over a long period of time whether we fix 
this.
    I think it is true, the Congressman and my good friend 
Firuz and the Commission and the office that I represent, we 
all do want the same thing. And by and large, we look at the 
same facts and come to the same conclusions on this point of 
discernment as to what happened. The real issue is what do you 
do with what happens? And I would take the stand that we have 
taken and gone through any specific country that you would 
like, but we did it with our eyes open. And we did it for the 
constituency, the No. 1 constituency that we serve, those 
people who this day are suffering because of how they believe, 
who they believe, where they believe. And we have to stand with 
them. We stand with the persecuted. That is what the act says. 
We stand with them in terms of promoting their cause, and I 
think we have been faithful to that.
    Mr. Smith. Dr. Kazemzadeh.
    Mr. Kazemzadeh. On the same subject?
    Mr. Smith. Yes, please.
    Mr. Kazemzadeh. Well, as Mr. Seiple said, there are 
differences in what ought to be done. We are in agreement on 
basic facts. Evaluations will differ. If I may say 
parenthetically that the words of Ms. McKinney touched me very 
much because the strength of America's influence abroad will 
ultimately be commensurate with the situation at home. If we 
have achieved successes in other fields, it is because of our 
domestic strength and the same will apply to human rights and 
to freedom of religion. But some of the disagreements I think 
are legitimate. And it is not for the Commission, obviously, to 
resolve these. I was speaking on behalf of the Commission. This 
was the decision of that body. And in some instances it does 
not coincide with the views of the State Department.
    Mr. Smith. Let me ask you, Dr. Kazemzadeh, whether or not 
you agree with his analysis of this issue of the context of 
diplomacy in deciding which countries are put on the list and 
which are kept off, which was the main point of my question to 
Ambassador Seiple. Having worked so diligently on that 
legislation with Grover Joseph Rees and others, I thought it 
was very clear that the original designation does not have that 
kind of open endedness and flexibility. That has to do with 
what we do afterward. We tell the truth, we say exactly what 
the situation is on the ground, and then we decide what is the 
best course of action to mitigate the abuse.
    So that is basically the question I wanted to ask you. 
Whether or not that has been adhered to, especially in light of 
the Commission's request that several other countries be added 
to the list.
    Mr. Kazemzadeh. It is a very interesting point. Just before 
the hearing started, Mr. Seiple and I were talking about this. 
The position of the Commission is the same as yours, Mr. 
Chairman, that facts ought to be stated; and if the facts 
warrant the inclusion of the country on the list of ``countries 
of particular concern,'' that should be made very clear.
    Now, what the U.S. Government shall do next, that I think 
the diplomatic lens through which you look at it should apply. 
Obviously the interests of the United States are varied and 
cannot be all decided ahead of time. The government, the 
Administration should have a great deal of leeway to act one 
way or another. But I think that on the question of 
designation, the Commission does not share that particular 
point of view.
    Mr. Seiple. Let me give you an example of where I think we 
have a difference, and again we can go back and make a judgment 
on how the methodology should proceed. The situation in Laos. I 
was there twice in the last year. I don't know if there is 
anybody in this room who has gone to Laos twice in a year, but 
I went not because it is great country, not because they have 
great weather, because they were in danger if they continued 
what they were doing, namely, forced renunciations of faith. 
People who would not renounce, go to jail. If people go to jail 
in Laos, many times it is in leg stocks. It is the worst kind 
of situation.
    And to put the context of diplomacy over that, we could 
either just sit back and watch Laos disintegrate and these 
people stay in jail, and then come back and play our power 
game--namely we are the powerful and yes we have 194 countries 
which do not include our own but we somehow seem to be able to 
live with the fact that we can judge everybody else--play the 
power game, make sure the press are aware, and throw the book 
at them at the end of the year.
    I felt it was much more important, given the spirit of the 
bill, of the act as I saw it, namely to promote and not to 
punish: To give them a heads up, say look, we want to work with 
you. We want to try to find a way out of this situation. We 
want to find a way that creates sustainable solutions so we 
don't have to revisit this. Laos is a poor country. It has very 
little going for it. I mean, it is almost picking on them to 
throw the book at them.
    Can we fix it some other sustainable way that brings 
dignity back to the human being. We have the discussions there, 
we had a number of discussions with the Ambassador here. We had 
a number of demarchees throughout the course of the year. We 
finally from the start of the year when 55 to 60 Christians in 
this case were in jail, got that figure down to 25. In ways 
that, quite frankly, I didn't think were possible because there 
are problems even in a communist country and maybe especially 
in a communist country where they don't control as much as they 
think they control.
    So we had a couple of Hitlers out there, a couple of 
governors who essentially were kings of their fiefdoms, and 
they weren't listening to the central government. We got that 
changed. It was late in the game. The Commission was not 
brought up to speed about it because it happened after the 
reporting period. But it came to the point where now in all of 
Laos we have a number of 25.
    Now, let me just say that these things are not linear 
progressions. We take one step forward and sometimes two steps 
back. Hopefully some days three steps forward. In this case we 
did an extraordinary thing in the government getting them to 
work with these recalcitrants, with these difficult Governors 
to points where jails were open and people were let out. And 
people were not being forced to renounce their faith.
    Now the legislation is written so that if they go back and 
say, ``Oh, we got a by, we can do it all over again,'' we can 
throw the book at them next week. We can throw the book at them 
next month. We can throw the book at them next year. We don't 
have to wait until 1 September of every year. The bottom line--
point however is if we had designated them and then tried to 
work the diplomatic side, the door would have been shut. The 
conversation would have been over. When you designate and 
sanction a country you change the relationship, sometimes, in 
my opinion, irreparably.
    So if that was the original intent of the bill and somehow 
we are in variance against the spirit of the act, this is a 
point we really ought to come back and talk about some more. It 
is a very important act. It is whether diplomacy will have a 
chance to work to the betterment of the first constituency that 
we were called to serve as opposed to a legal interpretation of 
an act.
    Mr. Smith. Because I would assume that within the context 
of diplomacy is if the decision was made in a way similar to a 
Laos we don't think it is working all that well and the 
situation on the ground as is pointed out the respect for 
religious freedom has deteriorated markedly during the last 
half of 1999 according to the report.
    Let me ask you if you could update us on China. I was just 
reading some news articles a couple of days ago about the 
underground Catholic Bishop Joseph Su from Hebei province who 
was arrested as were several others. I know you raised his 
case. I actually met with Bishop Su when he was briefly out and 
celebrated mass for our small delegation and immediately got 
rearrested. If there is anything you can do to shed light upon 
the situation in China, that perhaps amplifies what is in the 
report since it has been released. Also, what actions are 
contemplated vis-a-vis China.
    Mr. Seiple. China is an extremely tough case. I think we 
could have the same discussion we just had and insert China as 
to the question ``did it do any good?'' Would we have had a 
better chance without putting them in reports which now are 
mandated to come out three times a year between the Commission 
and the two that come out regarding democracy, human rights, 
and labor in the State Department? It is a good example of 
designation and a sanction and it has been made clear here that 
the sanction doesn't seem to be much of anything.
    Let me tell you that the designation was everything. We 
undressed China in public for what it is doing. Does that make 
it easier for us to talk to China? Absolutely not. Was it the 
right thing to do? I think so because diplomacy had failed. We 
had no other avenues. They had taken away the ability to have a 
dialogue. Let me say this about sanctions, I think it is right 
to have sanctions in the bill. We have gotten a lot of good 
positive things happening because we have used the threat of 
sanctions. But in China, things were bad, and the integritous 
thing to do was to designate them: and things have gotten worse 
in this past year.
    I could give you examples from the Falun Gong situation. 
Let me just give one that talks in my mind to the bankruptcy of 
the communist ideology. A 60-year-old woman, her daughter is 
called to the prison to pick up her body. Her crime, she is a 
meditator, she is a Falun Gong adherent. She is bleeding, dried 
blood from the ears, from the eyes, and from the mouth. She has 
got every tooth in her mouth broken. Her body is covered with 
bruises. We have this from a fairly credible source: Last 
February she was made to run up and down outside in the snow 
until she collapsed, a 60-year-old woman. Now how do you stand 
by and allow that to happen.
    I mean, at this point the context for diplomacy is gone. 
They have to be lifted up for who they are and what they have 
done. And they have to be lifted up in an international way. 
And we have done that. I think that is the best use of this 
part that was so carefully and painstakingly put together 
through yourself and Frank Wolf and Under Secretary Eizenstat, 
a very creative use of flexible sanctions for the purpose of 
advancing the spirit of the act, thinking about 60-year-old 
women who nobody thinks about, who nobody talks about, who can 
disappear from the face of the earth, except we got a letter.
    And I wish that was the only situation that was part of the 
marked deterioration. A few weeks ago, they arrested 130 
members of the Fauncheng church, one of the groups that were 
targeted in this anti-cult law. It is an underground church; 
there are three American citizens involved. The citizens 
gratefully were let out. I have to say this for China, they do 
a good job when there is an American citizen involved. Give 
them credit for that.
    That doesn't take away from anything that we have said 
about China. We have got a bankrupt system. It is failing. They 
are scared to death. What they don't understand, what they 
can't control, what appears to have an outside influence, 
takes--puts the fear of whatever into them. And they call it 
stability, but it really is the paranoiac fear for control. And 
we need to worry about China in the years ahead. Soft landings, 
hard landings, how PNTR works, we have a bad situation there. 
So that is a little bit of an update on China, but it also fits 
into this other discussion and how we utilize as intelligent 
beings the spirit of the act.
    Let me just say, when we go out to these places and say in 
1998, when you folks were not very bipartisan in this town, you 
voted unanimously for this particular act. The greatest thing 
to come out of this act is that it raises hope, hope for these 
people living on the cruel edges, hope for these people who are 
having to bury their 60-year-old mothers, that the last 
remaining super power cares for them and is willing to do 
things for them even if it costs them money or prestige or 
whatever.
    Hope is a future concept. In order to be credible in the 
future it has to be tangible in the present. These people know 
that we have a report that undressed China publicly. They know 
we have an independent commission that works on behalf of the 
voices. They know that people like yourself and Joseph Rees are 
working every day to make sure that their lives approach human 
dignity and that human dignity becomes a reality for more 
people in our lifetime. It is an amazing amount of hope. The 
best thing that this act has done is to make hope credible on 
the cruel edges of the world.
    Mr. Smith. Thank you, Mr. Ambassador. Cynthia.
    Ms. McKinney. Mr. Chairman, thank you. I would just also 
say that lobbyists who were--you were here pounding the halls 
of Congress advocating permanent normal trade relations with 
China didn't care very much about that 60-year-old woman 
either. And apparently no one else in the Administration did 
because they delinked human rights and trade.
    Let's talk for just a moment about Sudan, Mr. Ambassador. I 
am reading in Dr. Kazemzadeh's testimony that on Sudan more 
effective actions that the Commission has recommended include 
closing U.S. capital markets to companies that participate in 
the Sudanese oil fields. Could you talk to me about the fact 
that is it that companies are raising money here in the United 
States for the oil exploration and that is going on in Sudan?
    Mr. Seiple. I think you have correctly summarized what is 
happening. And I think as we looked in the Commission meetings 
in Sudan, the most creative thing that I have seen in a long, 
long time was this issue of barring. How do you do it, the 
issue of barring international companies who come to this 
country for the sole reason of raising capital and will 
eventually go, sometimes directly go to a process in a 
government and a country like Sudan. And believe me we have 
done about everything possible to Sudan including the throwing 
of Tomahawk missiles at Khartoum, but we haven't gotten their 
attention. And there are problems throughout that country but 
the problem really, and there is no moral equivalency between 
what goes on in the north and what goes on in the south, the 
problem is in the government of Khartoum. After 17 years and 
over 2 million people killed, the issue is how do you increase 
the gain or the pain of prosecuting that war. Because unless 
you make it so painful for them to stop or so good for them to 
stop it is going to continue for another 17 years. That got 
very, very complicated when Sudan had access to resources 
because they are pumping $32 a barrel oil. Some of which came 
about because money was raised in the United States of America, 
people made investments.
    Now, there are all kinds of issues here and frankly where 
this needs to be sorted out is in the Treasury Department. But 
let me say that I think it is a very creative idea. And it 
could have a tremendous boon to the human rights establishment 
if we could find a way to deny this from governments or 
companies who are working in governments that are harmful to 
the dignity of people. I think it should be pursued. I think it 
will be pursued. I am sure there will be all kinds of legal 
hurdles. But I would suggest it to you and this Committee to 
work with the Commission on that and to work with the 
Department of State and Treasury on that because it is a most 
creative idea.
    Ms. McKinney. Dr. Kazemzadeh, you have suggested in your 
testimony that there were some recommendations put forward with 
respect to Sudan. How do you feel--what do you think the 
Administration ought to do with respect to your 
recommendations?
    Mr. Kazemzadeh. The Commission has made five specific 
recommendations. The first was that the United States should 
begin a 12-month plan to pressure the Government of Sudan to 
improve human rights. The recommendation says that if there is 
not a measurable improvement in the religious freedom in the 
Sudan by the end of the period, the United States should be 
prepared to provide non-lethal and humanitarian aid to 
appropriate opposition groups. This was the first proposal.
    The second proposal that the U.S. Government should earmark 
more humanitarian aid for building public works such as roads 
and bridges in southern Sudan which apparently lacks a proper 
infrastructure for the delivery of the aid and for the well-
being of the people.
    The third proposal was that the United States should work 
toward a military no-fly zone over Sudan because, again, these 
bombings by air of hospitals and schools have been particularly 
horrible examples of repression.
    The fourth proposal, the U.S. Government should prohibit 
any foreign corporation from seeking to obtain in capital in 
the U.S. market as long as it is participating in Sudanese oil 
field development because there is a kind of an irony there of 
United States citizens in effect contributing money for 
repression in another country. And finally, that there should 
be an investigation of how far and how much of the debt the 
China National Petroleum Company intends to retire, how much of 
the debt arose from its Sudanese activities and whether U.S. 
underwriters knew or should have known of any such earmarking.
    So these were the complete proposals of the Commission made 
on the Sudan issue.
    Ms. McKinney. And Ambassador Seiple, what is the 
Administration's position on those recommendations?
    Mr. Seiple. Well, they are being discussed at the 
Department of Treasury as I suggested. I am not quite sure 
where they will come out. But again they are looking at 
legislation that is already in place and whether we contradict 
any of that in the rights of people in this country to invest 
and all those difficult issues. But again my encouragement to 
everyone would be to continue to push that. It is a most 
creative way to help the people that are suffering in Sudan 
because of who they are, where they are. It is a very 
important, could be a very important tool. We could get an 
awful lot of attention from despotic governments if they 
understand that this great fountain of venture capital is not 
at their disposal until they clean up their act. But it has to 
be pushed.
    Ms. McKinney. Mr. Chairman, I am finished.
    Mr. Smith. Sure. Mr. Payne.
    Mr. Payne. Thank you very much Mr. Chairman. Sort of in the 
light of questioning that Ms. McKinney had in regard to the 
Sudan, I too think that this is one of the worst tragedies that 
has been going on for over 4 decades and have received very 
little attention. About 7 or 8 years ago, I took my first of a 
number of trips to Southern Sudan. The last one a year or so 
ago I went to Loka, Tombe and other places. Just last night, I 
met with the delegation late into the evening of people from 
the Norwegian Aid and we discussed the whole question of the 
problems with food aid. Now, we asked our government that OLS 
was--certainly when they have an opportunity simply to bring in 
food when they want to, they use food as a weapon, that we have 
a language put in to allow food aid to go through not OLS 
means. Unfortunately, even though the legislation was passed 
there, there was opposition from traditional food aid 
organizations I think such as CARE and some of the others that 
opposed food aid and non-lethal assistance to NGO's and perhaps 
even SPLA in the south.
    And we have a number of problems, as you know, the question 
about the oil companies. That Talisman oil, as you know, we 
were able to get that in New Jersey. With the assistance of 
Congressman Smith, we pressured the Governor of New Jersey and 
they sold Talisman. As you know, it is tied in with the 
People's Republic of China and Malaysia as an oil conglomerate. 
And the fact that there is more oil in the south is going to 
simply increase Khartoum's reign of terror on the south.
    Second, there has been an increase in bombing as we talked 
last night. They are becoming more frequent. Just disrupting. 
When we were in Yei we thought they were going but he watched 
the chickens. Because if the chickens start running, then the 
children running and when the children run, you know the 
Antelopes are coming. And they continued the bombing and 
continued this continuously. And I too am at wit's end to try 
to understand why the Administration has not put forth a 
stronger position against the Khartoum Government. The gum 
Arabic question when we tried to have sanctions against that 
was once again allowed to continue to move forward.
    So I agree with you wholeheartedly that food is used as a 
weapon it is used too in religious persecutions. There is 
starvation still in the Nuba mountains, the question of the 
lack of any other organization being able to bring in food into 
the south of Sudan really makes this particular problem I think 
one of the most egregious that we see in the world. Either of 
you have any idea of why this continued problem continues to go 
along without outrage in the world? Luckily we have more and 
more people getting involved, primarily students who are 
getting involved in the whole question which has gotten some of 
the adults to have more concern. But can either of you give us 
any light on why this continued crisis catastrophe continues to 
go out much attention on the part of the worlds?
    Mr. Seiple. I wish my old friend Firuz would have an answer 
and an antidote and a silver bullet for what has gone on for 17 
years. I think we are in agreement here that this is a conflict 
that humbles us all. Why it continues. Why Khartoum would do 
this. Why discussions that go on with our special envoy, which 
was an additional plus to have that resource, that facilitator 
in the IGAD process and so on, why he can be having 
conversations with his interlocutors in Khartoum about 
unilateral or bilateral cessation of activities and those same 
airplanes are rolling bombs out the back. We had Max Gazeze 
here, Bishop Gazeze, about a week after they bombed the school. 
And these are--these were first graders--14 first graders who 
were sitting under a tree having an English lesson. And the 
bombs hit and 14 of the children were killed. And the diplomat 
out of Khartoum said it was an intentional target. This is 
craziness.
    In terms of what can be done, let me first address why 
there is not more outrage. These are personal points of view: I 
think the sense of intractability works against people getting 
involved, understanding the situation, which is complex, 
understanding Africa and how things work with the neighborhood, 
which is complex. And then also this has been a war without 
heroes. I certainly do not want to create a moral equivalency 
between what has been allowed to happen in the south and what 
goes on in the north, but it has been hard to find an 
opposition leader to firmly get behind in all respects. In 
terms of the OLS everybody has questioned why we allow Khartoum 
to veto where the food goes. Again it is crazy.
    The Government, the U.S. Government has been diverting more 
and more of its food into non-OLS areas. We have to have people 
to deliver the food on the ground. And the World Food Program 
[WFP] is one of the few programs that is an international 
organization that can do that. Very few of them can. But right 
now our--the money that we give to non-OLS food, if you take 
WFP out of it, is about the same as we give for OLS food. So 
there has been a switch and it is changing. Is it enough change 
to bring it to an end? No. Again if it were easy, it wouldn't 
have gone on for 17 years. It wouldn't have killed 2 million 
people.
    We wish there were more genuine outrage, that there were 
more facts presented like we are doing today, that more people 
would understand that what is at stake really in a global 
village has some impact and import to how they live, who they 
are.
    As I said at the beginning of this, this is a conflict that 
humbles us. I think if we quadruple everything that we are 
doing we could sill sit here and say, gee, how could we do 
more. We would welcome the input from this Committee. We 
welcome the input from the Commission. We have welcomed the 
creativity that has come about largely through the Commission 
work, and we all want the same thing. It is a tough, tough nut 
to crack.
    Mr. Payne. Thank you very much. We are going to continue to 
pressure and continue to work with the Commission. There are--
we have some allies out here. This is something we have to make 
a No. 1 priority. We have to continue to enlighten the world. 
We are starting to see more and more interest on the People's 
Republic of China. They have got more and more people coming 
in, and there is a rumor that they have a goal of getting 
several hundred thousand people in Sudan and working the 
fields, and laborers are there now and technicians. So this is 
really going into the wrong directions.
    Thank you very much.
    Mr. Seiple. You mentioned the NGO, and I failed to comment 
on that. I was head of an NGO that was very much involved. In 
fact, we got kicked out of the north because we were told we 
weren't needed. We were out for 6 months and 250,000 people 
starved to death, and we went back in the south illegally 
because human dignity is more important than the sovereignty of 
the state. I think that is the position that most of the NGO's 
that are there now take. But it is very hard to ask a known 
governmental organization to be part of the distributing system 
to the opposition forces regardless of how they individually 
feel, very hard to take the role of one party in a conflict 
over another. It puts them in a very, very awkward position. It 
might be the right thing to do. They might ultimately do it. 
But we really strain the philosophical basis of who they are 
when we take away their impartiality.
    Mr. Smith. Thank you, Mr. Payne.
    Mr. Faleomavaega.
    Mr. Faleomavaega. Mr. Chairman, as always I applaud and 
commend your tremendous leadership as a true champion not only 
of human rights but religious freedom. It always is an issue 
that I really, really appreciate that you have taken the 
forefront on this, trying to bring about the better change as 
far as religious freedom is concerned, not only perhaps in our 
own country but throughout the world. I certainly want to 
commend both Ambassador Seiple and Mr. Kazemzadeh for very 
comprehensive reports that have been submitted for the 
Committee Members to review.
    Recently there was a 60 Minutes interview between Mike 
Wallace and the President of the People's Republic of China. It 
was a very interesting dialogue between President Zemin Jiang, 
I believe is the pronunciation of his name. And there seems to 
be a quite a difference of values between Western nations, if 
you will, as opposed to those who are representing the Asian 
countries. And one of the things that was raised as you had 
suggested earlier, Mr. Ambassador, about religious freedom and 
how the perception is by someone representing 1.3 billion 
people, one out of every five persons living in this planet, he 
is the leader of the most populous nation of the world. The 
dialogue came down to the point, well, it is very easy for 
Western countries to look at religious freedom but in a very 
different way.
    I wanted to ask Ambassador Seiple if there is an--and I am 
not defending whatever action you have taken against the 60-
year-old lady that you had mentioned earlier, but I am only 
saying is there a difference, definite difference of values on 
how we from the Western aspect of philosophy and whatever you 
want to call it, as opposed to how people have to cope with the 
realities, that form of government, may it be communist or 
whatever other form that is taken. And I say these not in a 
critical way. I am just trying to understand, at least have a 
sense of understanding of the problems that they are having to 
deal with, not just in religious freedom but even just the mere 
existence, providing food on the table for some 1.3 billion 
human beings living on that part of the world.
    For starters, I want to share with you I am not a 
historian, but it is my understanding when the People's 
Republic of China was founded in 1949 there were 400 million 
Chinese living since 1949. And our own country's population 
right now is about 273 million. We are now the third most 
populous nation in the world. But from the perspective of 
someone like Mr. Zemin giving this, there is a different 
perception about religious freedom as we would have it, even 
though we have a problem with religious freedom. If there is a 
question of high school students that could not give prayers 
before football games, the Supreme Court is involved in this.
    I am very curious, Ambassador Seiple, if perhaps the 
President of the People's Republic of China gives that 
perception. There is a difference of perception here. I wanted 
to ask you if there may be some sense of truth in that 
observation.
    Mr. Seiple. We certainly agree that they have 1.3 billion 
people. And we should not ignore that. We should be very active 
in China. We cannot take a closed-minded position to that. 
There has to be engagement with China that has integrity. I 
wish that Harold Koh, the head of--Assistant Secretary for 
Human Rights, could also answer this question. He is Asian, and 
he represents what we all want to represent; namely, the 
universality of the concept of human rights, the concept of 
religious freedom. I think one of the very bright things, smart 
things, wise things that was done when the International 
Religious Freedom Act of 1998 came together, is seen in the 
preamble. The preamble was written in the context of the 
international covenants, the International Declaration of Human 
Rights, and all of what came after 1948. Interestingly that 
came into being a year before the Communist Party in China.
    China always talk about its culture, its systems, its 
history. The Communist Party is the carpetbagger in China. 50 
years. That is it. The Chinese culture of course goes back 
millenniums. But the preamble suggests that these are covenants 
that are already in existence. America didn't invent this idea. 
Jimmy Carter used to say we didn't invent human rights; in many 
respects human rights invents us. On the basis of the dictates 
of the American people, through a representative government, to 
put our considerable shoulder to the wheel to covenants 
existing internationally that countries like China had already 
signed--inherent in those covenants is the concept of mutual 
accountability. China could come and point out our problems. We 
should welcome that. They should hold us accountable for human 
rights abuses if they exist in this country, and we should feel 
free to do the same. We don't do this because we have invented 
something special and unique in America, or that it is part of 
our history.
    You know, there is something that transcends the nation's 
states, something that transcends national boundaries. It is 
human dignity. It is the sanctity of life which we have in 
common with every single person on the planet.
    Mr. Faleomavaega. I suppose where I am coming from, Mr. 
Ambassador, I don't question your statement in response, so we 
go after China, we undress China. I guess my concern is that 
are we doing the same for Saudi Arabia, where we talk about the 
rights of religion freedom and religious freedom in that 
country. And of course Saudi Arabia is a very important country 
as far as our foreign policy is concerned. It is not a non-
democratic country. They don't elect the shahs and kings there. 
You are born into the royal family.
    How would you address--the concern I have, are we evenly 
distributing the pressure? If we are doing it for China, are we 
doing the same for Saudi Arabia or other countries that are not 
necessarily democratic in substance as far as we are concerned?
    Mr. Seiple. When we write the reports we write with the 
same methodology, looking for facts that we can verify and then 
stating those facts as they are. In terms of what you do with 
those facts and the methodology employed and the next step 
forward, there is a difference. I had a fascinating afternoon 
in Saudi Arabia talking about these issues not only with their 
government officials but with their clerics. In China, we are 
not allowed to have that dialogue. That was suspended in China. 
So you do what you can do when you can do it. If they gave us 
more leeway, we would take it.
    Are we happy with where Saudi Arabia is today? Absolutely 
not. And our record on that, our chapter on Saudi Arabia points 
that out. Our chapter on China again, with the same kind of 
integrity and methodology to fact finding and truth telling is 
done in a similar fashion.
    Mr. Faleomavaega. As much as we are doing a 365-day 
calendar year that celebrates Christmas, do you think 
something--we should also have a national day for Buddha and 
let's say even for Mohammed?
    Mr. Seiple. I am not sure of the specifics because you are 
hitting me cold, but should we respect the Buddhist faith, 
should we respect the faiths that are not traditional in this 
country that might be new?
    Mr. Faleomavaega. A national holiday the same way that we 
do the same for Christmas.
    Mr. Seiple. Do we have a national day for our Christmas 
because of our culture or because of our religion?
    Mr. Faleomavaega. Good question.
    Mr. Seiple. I don't want to step out and say we should have 
a national day for something without more reflection on it. But 
if the question is should we have respect, mutual respect, 
equal respect, for other things, than what might be those that 
were traditionally involved in the founding of this country, 
our majority faiths today, absolutely. Absolutely. A country's 
human rights record ultimately is fashioned by how it treats 
the minority representation, not the majority, and we have some 
work to do there. We are superficial in our understanding of 
the Islamic faith.
    Mr. Faleomavaega. Mr. Ambassador, I could not agree with 
you more on that. Thank you, Mr. Chairman.
    Mr. Smith. Thank you very much, Mr. Faleomavaega. 
Ambassador Seiple, let me ask you a few follow-up questions. In 
his testimony, Joseph Assad, the Middle East Research Director 
for the Center for Religious Freedom, Freedom House, takes your 
shop to task on the Egypt section. He points out in his 
testimony that the Egypt section of the State Department's 
religious freedom report is very uneven. The serious findings 
of violations of religious freedom against Egypt's Copts of the 
last year are undercut by the report's determination that so-
called ``noteworthy improvements'' have occurred and the 
finding of a trend toward improvement in the government's 
respect for and protection of the right to religious freedom.

    In fact, the improvements cited at the beginning of the 
Egypt section are either misrepresented, such as the 
restriction on church repairs, or are insignificant in contrast 
to the grave violations, arrests, and denials of justice 
experienced by the Copts over the last year. Freedom House's 
Center for Religious Freedom is concerned that the report may 
be soft pedaling the persecution of the Copts in deference to 
the Middle East peace process.
    For example, the report describes the massacre of 
Christians in Al-Kosheh earlier this year as clashes and 
exchanges between Muslims and Christians. Since all of those 
who were murdered in the village were Copts, this description 
is comparable to describing the Ku Klux Klan lynchings as 
clashes and exchanges between blacks and whites. We hope that 
these shortcomings in the report's Egypt section do not stem 
from American insensitivity due to Cairo's role in the Middle 
East peace process. The credibility of the report hinges on 
their ability to state accurately and unflinchingly the status 
of religious freedom irrespective of other U.S. strategic and 
economic interests.

    He then goes on to point out many of the concerns of the 
Coptic church and individuals, including the vulnerable young 
Christian women and girls who are targeted by extremist Muslim 
groups and pressured to convert to Islam, sometimes with the 
cooperation of local police. He has many other examples of the 
violence and discrimination against Christian Copts. How would 
you respond to that characterization, which is very strong?
    Mr. Seiple. Joseph Assad is a good friend of mine. I have a 
great respect for his reflective thought and his methodology 
and his conclusions. I would take exception with a friend--that 
is the beauty of dialogue with friends--that the improvement 
section is still important. We have touched about this earlier. 
I find that we lose credibility as I mentioned before, when we 
only talk about those things that are wrong and not those 
things where progress has been made. I think we have to be 
larger than simply hitting people. We have to find ways to lift 
them up to a higher standard. Sometimes the mere mention of 
something positive is that instrument that can do that. And I 
hope that will be the case here.
    I have never been accused of being a soft peddler in my 
life. I don't think we have soft peddled Egypt. I think you 
talk to the Egyptian Government, and you get a chance to do 
that from time to time. Whether or not they like the 
international religious freedom report and the 
characterizations, there is no question that this year in the 
terrible events at the end of December, beginning of January in 
Al-Kosheh, terrible from a human rights perspective, terrible 
from anybody who believes in the dignity of people, but I do 
have to say and Joseph has to say that the Egyptian Government 
handled this one sight better than they handled it the year 
before.
    Why did they do it? They did it because we talked to them. 
We explained the problems. We explained the way they were going 
to be perceived by the rest of the world. If they continued to 
do what they did essentially after Al-Kosheh, I mainly to try 
to put something--shove it under the rug, forget about it, say 
it didn't happen. And in Al-Kosheh I, we can use that 
terminology, in August 1998 they did everything wrong. At least 
the government response to these terrible abuses, these 
terrible occurrences this year, was a great deal better than 
before and that is progress.
    Again, I don't think anyone can read the entire Egypt 
section and feel that we have given them a buy because they are 
a long-term ally. We think we have told it like it is. We may 
have difference on how much of this is tied to societal 
hostilities, how much of it is tied to the lack of human rights 
and how much it is specifically tied to a significant degree to 
religious freedom issues. But that is why we have these kinds 
of conversations.
    Mr. Smith. Mr. Ambassador, I say this with respect too, 
because I do greatly respect you, I think it is important to 
raise these issues, even though we now have another vote on the 
floor of the House. But there is a very strong statement coming 
from the Uzbekistan researcher who will also be testifying 
shortly, Ms. Shields, who has worked on the ground in Tashkent. 
She is a researcher for Human Rights Watch. She makes the 
points--I would like to quote that briefly and try to get your 
response with regard to Uzbekistan.

    While this year has seen at least two dramatic and 
disturbing attacks on Christian believers and several 
detentions of Christians for alleged missionary activity, one 
of which was documented in the State Department report, the 
problem of religious repression in Uzbekistan is first and 
foremost a problem of government ordered discrimination in 
violence against pious Muslims on a vast scale.
    Since late 1997, Uzbek police and security forces have 
arrested thousands of pious Muslims. These arrests are illegal 
and discriminatory; they target people who belong to 
unregistered Islamic groups who practice outside state 
controlled mosques or who possess Islamic literature not 
generated by the government. Police routinely torture and 
threaten detainees, deny them access to medical treatment and 
legal counsel and often hold them incommunicado in basement 
cells for up to 6 months. Trials are grossly unfair as judges 
systematically punish independent Muslims with lengthy terms in 
prison for their religious beliefs and affiliations, ignoring 
allegations of torture and allowing coerced self-incriminating 
statements of evidence, often the only offered evidence, to 
convict.
    This year's IRF report recognizes neither the anti-
religious nature of this repression nor the human rights crisis 
it has produced. It argues that victims are engaged in activity 
that is primarily political and therefore that Uzbekistan 
cannot be said to be violating the victim's religious freedom.
    This campaign of repression based on religious beliefs and 
practices is blatant and irrefutable, and the arrest of 
thousands of independent Muslims is now well-documented.
    Only sophistry has allowed the Administration to avoid 
classifying Uzbekistan as a country of particular concern for 
its gross violations of religious freedom.

    How do you respond to that? Again I have had hearings in 
the Commission on Security and Cooperation in Europe, and you 
are up on Uzbekistan and we have focused very much on the 
religious repression. I, too, find it puzzling and perhaps 
there is an answer.
    Mr. Seiple. I do think there is an answer. Again, I very 
much respect the work of Acacia Shields. I know the size of her 
heart. We spent time together with a number of Muslim women 
during my last trip there. I have been there twice looking at 
these issues. First of all, there are horrendous human rights 
problems in Uzbekistan. I hope that nothing in the report 
minimizes the fact that we have huge human rights issues. What 
we need to be sensitive to, however, is that human rights, 
other human rights do not use the International Religious 
Freedom Act and hold it hostage and try to make it work so that 
this can be used against the situation over there.
    We have had--this past year we have had a number of people 
released from prison. We have had a liberalization of the 
registration process. We have had a promise followed up on that 
there would be roundtables and conferences on the 1998 
religious law, which we feel was the most harsh religious law 
in that part of the world or any part of the world. All those 
things have happened. Namely, diplomacy has had some major 
successes here.
    Again is it linear? Do you ever go two steps forward, one 
step back or three steps back? You bet. This is a country that 
has been around for 10 years and it comes out of the Soviet 
system with some of the same personalities in place. But 
basically the difference is this: The Uzbeki Government sees 
the opposition parties as wanting to come in and take over 
violently their government. And I looked at the bombing of 
February 16, 1999 when their paranoia on that issue became very 
real. They have a point. They live in that neighborhood. There 
are forces that would like to turn that country inside out and 
turn it into a form of political Islam or Islamic extremism.
    Now, that does not mean that they should throw the net so 
wide that they bring in innocent people, whatever the religion, 
and they end up in jail, they end up in those torture chambers 
or prisons that exist in Uzbekistan. Every conversation that we 
have had with our interlocutors has said what you are doing by 
that, it is a massive human rights violation and you are 
radicalizing moderate people by bringing them into the net and 
keeping them in prison and torturing them. Now, are they doing 
it because of their religion? This is a Muslim country. 85 
percent of the people in the country are Muslim. Do people who 
are Muslim in the country worship freely? By and large yes. It 
is a huge human rights issue. We do not see that as a specific, 
to a significant degree, religious freedom issue. Regarding the 
religious freedom issues, we have had nothing but cooperation.
    I hope some day one good cooperative effort will lead to a 
further cooperative effort and we get what Acacia Shields wants 
as well; that is, these jails be opened up, the general amnesty 
takes place, and this massive human rights violation is 
ameliorated.
    Mr. Smith. I thank you for that response. I do have 
additional questions. I am sure my good friend from Georgia 
does likewise. We would like to submit them to you.
    For instance, on Burma, where there has been obviously a 
very bad turn for the worse, and although maybe that is 
political, there seem to be some religious overtones to it. In 
Indonesia there seems to be a rising tide of intolerance. On 
trips that I have taken there I have raised that very issue. I 
know you have as well. It seems as if there may be collusion if 
not outright backing of certain violence against Christians. 
There are serious problems in North Korea, as I mentioned 
earlier, Saudi Arabia, and Vietnam. I do have a number of 
questions that I would like to pose to you.
    So again time does not permit, but we will make them a part 
of the record.
    Mr. Seiple. We would love to keep the conversation going. 
You know I am the talking head in the office. The person who 
does all the heavy lifting, an incredible job and incredible 
person, is my deputy Tom Farr. And gratefully our staffs are 
working, and talking heads come and go, but the good work will 
continue, and I am at your disposal in the future.
    Mr. Smith. In all candor, I know Mr. Farr. I think the 
world of him, but you are more than a talking head. You have 
done a great job and we appreciate it. Even when there is a 
difference of opinion, I know it is coming from the heart and 
you know we just agree to disagree on certain countries that 
perhaps are not included.
    But I want to thank you for your great service. The 
Subcommittee, I know all of us in a bipartisan way, deeply 
respect you and wish you well.
    Mr. Seiple. Thank you very much.
    Mr. Smith. We do have a vote on the floor. The Subcommittee 
will stand in recess until that vote is concluded and then we 
will take on the second panel.
    Thank you, Mr. Ambassador.
    [Recess.]
    Mr. Smith. The Subcommittee will resume its sitting.
    I would like to introduce the next panel, panel two, a very 
distinguished group of people, beginning with Joseph Assad, who 
is the research director for Sudan and the Middle East at 
Freedom House's Center for Religious Freedom here in 
Washington. An Egyptian Christian human rights activist who is 
fluent in Arabic, Mr. Assad travelled to Egypt this past July 
to investigate the January 2000 massacre of Christians in Al-
Kosheh. He represented Freedom House at the United Nations 
Human Rights Commission in Geneva and has led fact-finding 
missions in numerous countries for the Center for Religious 
Freedom.
    Next we have Acacia Shields, who is the Uzbekistan 
researcher for Human Rights Watch and serves as the director of 
that organization's field office in Tashkent. A previous 
employee of Amnesty International. Ms. Shields joined Human 
Rights Watch in 1997 as the Europe and Central Asia Division 
coordinator on Central Asia and the Caucasus. Ms. Shields 
studied Islamic law and Middle East politics at Brown 
University and earned her master's degree in international 
affairs and human rights from Columbia University.
    Third we will hear from Dr. Jimmy Zou, who is a Falun Gong 
practitioner. During a visit to China last year to visit his 
parents, Dr. Zou was arrested and tortured by Chinese 
authorities during his 6-day detention. Currently a Federal 
employee in Washington, D.C., Dr. Zou earned his doctorate in 
mathematics from the University of Connecticut.
    Finally, we will hear from Reverend Pha Her, who is the 
secretary of the Lao Evangelical Church, which is the 
headquarters of the Christian and Missionary Alliance 
denomination in Laos. Reverend Her traveled to the United State 
from Laos earlier this summer.
    Mr. Smith. Mr. Assad, if you could begin.

   STATEMENT OF JOSEPH ASSAD, MIDDLE EAST RESEARCH DIRECTOR, 
                         FREEDOM HOUSE

    Mr. Assad. On behalf of Freedom House's Center for 
Religious Freedom, I congratulate you, Mr. Chairman and Members 
of the Committee, for holding these important hearings today. 
Mr. Chairman, Freedom House applauds your dedicated efforts for 
many years for religious freedom in many countries around the 
world.
    I am appearing here both as a representative of the Center 
for Religious Freedom and as a Coptic Christian born and raised 
in Egypt, who has witnessed firsthand the problems facing the 
Middle East's largest religious minority. I return to my native 
Egypt frequently. My last visit was in July in order to 
investigate the facts surrounding the Al-Kosheh massacre of 
last January, which was mentioned earlier in the first panel.
    I have been asked to concentrate my remarks on the pivotal 
country of Egypt and the Coptic perspective of religious 
persecution in that country. The Egypt section of the State 
Department's Religious Freedom Report is very uneven. The 
serious findings of violations of religious freedom against 
Egypt's Coptic minority of last year are undercut by the 
report's determination that so-called ``noteworthy 
improvements'' have occurred and the finding of a ``trend 
toward improvements in the government's response for and 
protection to the right of religious freedom.''
    In fact, the improvements cited at the beginning of the 
Egypt section are either misrepresented, such as the 
restriction on church repairs, or are insignificant in contrast 
to grave violations, arrests, and denials of justice 
experienced by the Copts over the past year. Freedom House's 
Center for Religious Freedom is concerned that the report may 
be soft-pedaling the persecution of Copts in deference to the 
Middle East peace process.
    For example, despite last December's announcement by Cairo 
to the contrary, government officials still enforce 
restrictions to building and repairing churches, restrictions 
that do not apply to mosques. Most Copts we talked to in Egypt 
this summer stressed that in practice they still face the same 
barriers as before. None of the religious leaders could point 
to an example of a church which was able to conduct repairs 
without an official permit as required under the old law. We 
talked to several pastors and priests whose churches were 
denied permits for repairs even after the new changes in the 
law were made. The priest of one church we visited in upper 
Egypt was recently arrested after he installed a metal grille 
to be used as a doormat without the government's permission. 
Therefore, the report's assertion that the new Presidential 
decree has had a positive effect in the facilitation of church 
repairs appears to be unwarranted.
    In addition to the long-standing problems faced by the 
Copts, which are well known to this Committee, this past year 
Egypt has witnessed several severe setbacks for religious 
freedom, setbacks that are difficult to reconcile with the 
State Department's annual report's findings of noteworthy 
improvements. The most egregious of these occurred in the 
southern Egyptian village of Al-Kosheh in one of the worst 
massacres of Coptic Christians in recent history. The Egypt 
section of the report mischaracterizes what occurred in Al-
Kosheh as sectarian violence and as clashes and exchanges 
between Muslims and Christians. Since all of the murdered in 
the village were Coptic Christians, this description is 
comparable to describing the Ku Klux Klan lynchings as 
exchanges between blacks and whites.
    The report concludes that the government's response is 
improved, with the government responding quickly to restore 
order. These assertions contradict the accounts of eyewitnesses 
to the massacre, Egyptian human rights observers and the Coptic 
Pope's own assessment of the government's response. As a matter 
of fact, in an extraordinary written protest, Coptic leader 
Pope Shenouda charged the Egyptian Government of not doing 
enough to stop violence and demanded answers for why the police 
withdrew from the area minutes before the massacre began.
    In July, as part of a Center for Religious Freedom team, I 
spent 3 weeks in Egypt documenting and investigating Al-Kosheh 
where 21 Christians were killed, dozens were injured after they 
were attacked by rampaging Muslims in early 2000. One Muslim 
was also killed in a nearby village by a stray bullet fired by 
another Muslim.
    While in Egypt our team interviewed families of victims, 
dozens of eyewitnesses. They gave us firsthand descriptions of 
the attack. Nine of the dead Copts were killed in their own 
houses, which indicates that they were hunted down as were 
sought to escape. Three of the dead were females, one an 11-
year-old girl, and four were under the age of 16, and one was 
85. One man was reportedly asked to renounce his Christian 
faith. When he refused, his arm bearing a Christian tattoo was 
cutoff, and he was stabbed to death. A mob then burned his 
body. His mother was an eyewitness to these events.
    While there was destruction of property in Al-Kosheh by 
both Muslims and Christians, all those murdered were 
Christians. The massacre in January of 2000 cannot be 
understood apart from the events in Al-Kosheh of 1998. The 
murder of two Copts in August allegedly by five Muslims was 
followed by the arrest, abuse and sometimes torture over the 
next 6 weeks of about 1,000 Copts by local Egyptian police. The 
government continues to deny that discrimination occurred by 
police nor brutality in Al-Kosheh.
    Coptic Bishop Wissa was also arrested for reporting 
publicly on this incident. No police officer was penalized for 
the well-documented mass abuse and incidents of torture in Al-
Kosheh of 1998. There can be little doubt that the failure of 
justice for Christians after the police dragnets and abuse of 
1998 left the Coptic community vulnerable to further assaults 
by sending a signal that the Christian community could be 
attacked and driven from their homes with impunity.
    The Al-Kosheh massacre of 2000 is compounded by the 
government attempts to muzzle nongovernmental organizations and 
human rights defenders who reported on it. Government pressure 
has led to the closing of the Center for Legal Studies in Human 
Rights, and the Ibn Khaldoun Center for Development Studies, 
while the Egyptian Organization for Human Rights significantly 
scaled back its activities. Sociologist and prodemocracy 
activist Dr. Saad Eddin Ibrahim was arrested and detained 
earlier this summer. These NGO's are essential institutions for 
furthering democratization and religious tolerance from within 
Egyptian society.
    Mr. Chairman, this is why I stated that the State 
Department's report soft-pedals the Egypt section because this 
is major, and it was not acknowledged in the report. Two days 
ago 21 Muslims were convicted on relatively minor charges in 
connection with the Al-Kosheh massacre. To date no one has been 
convicted or sentenced for murder or attempted murder in the 
massacre itself.
    Until now the Government of Egypt has consistently 
downplayed the extent and seriousness of violence against 
Egypt's Christian community. It has characterized the Al-Kosheh 
massacre of last January as simply a random event that is 
unconnected with religion. It is too early to tell if the 
convictions announced 2 days ago are the turning point.
    We are concerned that if the Government of Egypt fails to 
take appropriate police action and legal redress, the situation 
may continue to spin out of control, with escalating violence 
and deepening religious polarization.
    Finally, I wish to comment briefly on the Sudan section, a 
report so shamefully weak, its inadequacies can only be 
explained as an attempt to cover up a U.S. policy failure of 
historic proportions. Nowhere in the section is conveyed a 
sense of the ongoing genocide being waged by the government 
against its southern religious and racial minorities that was 
condemned in House Resolution 75 of a year ago. Only on page 6 
of an 8-page account in two short paragraphs is the war that 
has already killed 2 million from the Christian and animist 
homelands addressed, a war in which religion plays a major 
roll, according to the U.S. Commission on International 
Religious Freedom.
    The section emphasizes noteworthy improvements and concerns 
itself mostly with milder bureaucratic restrictions and 
instances of harassment. In its search to find improvements, 
the State Department report leaves the impression that 
government bombing of civilian targets stopped in April, when, 
in fact, the regime's relentless bombing campaign continued 
throughout the summer and brought to a halt the international 
humanitarian lifeline the south depends on.
    The report fails to address the fact that the U.S. aid is 
manipulated by the regime to enforce its strategy of selective 
mass starvation. It also makes mention of the serious charge of 
the U.S. Commission on International Religious Freedom in an 
August 14 letter to the National Security Advisor that U.S. 
food aid is being channeled to Islamic relief groups that 
require conversion as a precondition to receiving the aid.
    Thank you, Mr. Chairman, for this opportunity to testify.
    [The prepared statement of Mr. Assad appears in the 
appendix.]
    Mr. Smith. Mr. Assad, thank you very much for your 
excellent testimony.
    Acacia Shields, if you would proceed.

   STATEMENT OF ACACIA SHIELDS, UZBEKISTAN RESEARCHER, HUMAN 
                          RIGHTS WATCH

    Ms. Shields. Thank you, Mr. Chairman. I would like to 
express my appreciation for this opportunity to speak to the 
Subcommittee about the repression of religious freedom in 
Uzbekistan.
    My remarks here will be a summary of my written statement, 
which I ask to be entered into the record.
    Mr. Smith. Without objection, your statement and that of 
all our witnesses will be made a part of the record.
    Ms. Shields. My name is Acacia Shields, and I am the 
Uzbekistan researcher for Human Rights Watch based in Tashkent. 
Human Rights Watch has investigated violations of civil and 
political rights in Central Asia since 1990, and we have had a 
field office in Uzbekistan since 1996.
    For the last year and a half, I have been living in 
Uzbekistan and have investigated religious repression in the 
country and carefully documented hundreds of cases of 
religiously motivated arrests, detention and torture of 
believers and other forms of discrimination and harassment. I 
have interviewed hundreds of victims and relatives of victims 
of religious discrimination, and, again, I am profoundly 
grateful to this Subcommittee for this opportunity to bring 
their stories to you and to comment on the way in which this 
campaign of oppression is treated in this year's State 
Department Annual Report on International Religious Freedom.
    The arrests of Muslims in Uzbekistan are discriminatory. 
Believers are targeted for membership in unregistered Islamic 
groups. Those who practice outside state-controlled mosques are 
also targeted for arrest. Even possession of Islamic literature 
is grounds for arrest. Trials are grossly unfair as judges 
systematically punish independent Muslims with lengthy terms in 
prison for their religious beliefs and affiliations and ignore 
compelling allegations of torture.
    This year's international religious freedom report 
recognizes neither the antireligious nature of this repression 
nor the human rights crisis it has produced. It argues that 
victims are engaged in activity that is primarily political, 
and, therefore, that Uzbekistan cannot be said to be violating 
the victim's religious freedom.
    We believe this position is misguided. We do not believe 
the Government of Uzbekistan has made improvements that merit 
credit, as the report suggests. And we do believe that the 
Administration should name Uzbekistan as a country of 
particular concern for religious freedom and adopt appropriate 
measures as foreseen by the International Religious Freedom 
Act.
    The arrest and conviction of thousands of independent 
Muslims is now well-documented. Human Rights Watch has 
monitored dozens of trials and obtained officials court 
documents for several hundred additional cases. The majority of 
indictments and judicial verdicts state clearly that the basis 
for the charges and convictions is their religious practice and 
beliefs, which the state then construes as evidence of 
antistate activity and attempt to overthrow the constitutional 
order. These practices include participating in unsanctioned 
prayer groups or conducting private religious teaching, 
membership in an unregistered Islamic organization, or, again, 
possession or distribution of literature of such an 
organization.
    The State Department's International Religious Freedom 
Report also creates a false distinction between moderate 
Muslims, whom it defines as those who participate in 
government-run activities, and those who operate outside the 
state-run Muslim hierarchy. The Uzbeki Government, it argues, 
supports the former, but is intolerant of the latter. In fact, 
a moderate Muslim may practice within and beyond state-run 
Muslim structures.
    Finally, the International Religious Freedom Report gives 
credit for Uzbekistan's progress when, in fact, none is due. 
Its discussion of positive improvements, for instance, cites 
the release of six Christians last year prior to the release of 
the 1999 International Religious Freedom Report. This is a move 
that we see as a calculated effort to avoid designation as a 
country of particular concern and to distract the 
Administration from the lack of progress in the treatment of 
Muslims. I would add also that it is a move for which they have 
already received credit last year.
    The government's campaign against pious and independent 
Muslims took a dramatic turn from bad to worse when Tashkent, 
the capital, was rocked with several bomb explosions in 
February 1999. The government immediately blamed Islamic 
extremists, and security forces were given carte blanche to use 
any and all means to round up these so-called enemies of the 
state.
    The arrests and convictions have continued in the year 2000 
at an alarming rate. Some who are released prior to the 
International Religious Freedom Report last year were 
rearrested this year. The government's tactics in this campaign 
recall some of the worst moments of the Soviet era. It has 
created a climate of suspicion and fear in which neighbors 
inform on one another, mothers turn their sons over to police 
and local authorities organize hate rallies to denounce pious 
Muslims and their relatives as enemies of the state. Family 
members are detained and even arrested by the police. They are 
held hostage by authorities who state outright that until their 
relatives are arrested, these mothers, fathers and other loved 
ones will sit in jail.
    Women are often detained and threatened with rape in front 
of their husbands or sons in order to coerce the men to make 
self-incriminating statements. This happened to Darmon 
Sultanova, who met with Ambassador Seiple during his last visit 
to Uzbekistan. She recalled in that meeting how police came to 
her home and asked who in the family studied Koran and how many 
times a day they prayed. The officers arrested Sultanova's 
sons, Uigun and Oibek Ruzmetov, on charges of Wahhabism and 
detained Sultanova and her husband. Police stripped the elderly 
woman naked and handcuffed her to a radiator in a basement 
cell. They brought in her sons, beaten and bloody, and 
threatened to rape the young men's mother if they did not 
confess to a range of charges including membership in an 
illegal religious group and participation in several unsolved 
murders throughout the country. The young men signed the police 
statement.
    Uigun and Oibek Ruzmetov recounted their ordeal at trial 
and declared their innocence, but the judge did not investigate 
the charges of police abuse, and, declaring that the young men 
had taken part in forbidden activities of a reactionary 
underground religious organization of Wahhabists, found them 
guilty on charges of murder, weapons possession and illegal 
activities and sentenced the young men to death. The Ruzmentov 
brothers were executed by firing squad.
    I would like to share one other case with you that is 
illustrative of the type of wrongful arrests of pious Muslims 
that is being carried out by Uzbek security forces today.
    Imam Abduwahid Yuldashev was deputy to an outspoken and 
independent-minded religious leader, Obidhon Nazarov, who has 
since fallen afoul of the Uzbek Government. Police arrested him 
on falsified charges of narcotics possession. Yuldashev was 
later released on appeal shortly before the publication of last 
year's International Religious Freedom Report. This release was 
lauded by State Department officials as a sign of progress. 
However, this is not the whole story.
    On July 24 of this year, police rearrested Imam Yuldashev. 
This time they charged him with Wahhabism and spreading jihad 
ideas. This time they denied him access to a lawyer. Yuldashev 
is today languishing in his second month of incommunicado 
detention in the basement of the Ministry of Internal Affairs 
building in Tashkent, without access to legal representation or 
medical treatment. There are many others like him.
    Just yesterday on September 6, 15 men charged with 
membership in Hizb ut-Tahrir were sentenced to prison terms 
ranging from 12 to 16 years.
    This year's report on international religious freedom notes 
the efforts made by the United States to remind Uzbekistan of 
its obligation to respect freedom of conscience, to 
differentiate between terrorists and peaceful Muslim believers, 
but this message is not getting through. Visiting U.S. 
officials have raised concerns, issued demarches on specific 
cases and pressed for changes in the domestic laws, but the 
Government of Uzbekistan has only intensified its campaign. 
More must be done.
    As you know, the International Religious Freedom Act was 
designed in part to ensure a clear and consistent U.S. policy 
on freedom of religion. While the Uzbek Government sometimes 
receives sharp criticism from U.S. officials, it also received 
an estimated $30 million in U.S. assistance in 1999. Since 
1995, Uzbekistan also received $980 million in credits from the 
U.S. Export-Import Bank. Awarding this kind of privilege and 
benefit in the face of egregious violations casts doubt on the 
United States' commitment to religious freedom and gives abuser 
states such as Uzbekistan the impression that they can carry on 
with oppressive policies and still profit.
    In conclusion, I want to emphasize that Uzbekistan is in a 
profound human rights crisis, at the center of which is 
religious persecution. The Administration should abide by its 
legislative obligations and designate Uzbekistan as a country 
of particular concern for religious freedom.
    I want to thank you again for giving me the opportunity to 
share our findings, and I welcome any questions.
    [The prepared statement of Ms. Shields appears in the 
appendix.]
    Mr. Smith. Thank you very much, Miss Shields, for your very 
compelling testimony.
    I would like to now invite our third panelist Dr. Zou, a 
Falun Gong practitioner.

  STATEMENT OF JIMMY ZOU, FALUN GONG PRACTITIONER AND FORMER 
                       DETAINEE IN CHINA

    Mr. Zou. Mr. Chairman, I want to thank you for holding this 
important hearing. It gives the millions of Chinese----
    Mr. Smith. Could you try to turn on the microphone--I think 
it may be turned off--and bring one of the microphones close.
    Mr. Zou. Mr. Chairman, I want to thank you for holding this 
important hearing. It gives millions of Chinese Falun Gong 
practitioners an opportunity to voice their suffering in their 
appeal to the world for their search for help. On behalf of 
tens of millions of Chinese Falun Gong practitioners, I would 
like to express my gratitude for the House resolution that you 
introduced last November and the law you have recently 
sponsored.
    Please allow me to introduce myself briefly. My name is 
Jimmy Zou. I came from China and am now an American citizen. 
Currently I work as an actuary with a Federal insurance agency 
in Washington, DC. Falun Gong is a self-improvement of mind and 
body from traditional Chinese culture. I attended a free Falun 
Gong workshop in 1996 in Washington, D.C. Since then I have 
been practicing Falun Gong exercises every day. I also tried to 
become a better person at home and in workplace by following 
Falun Gong principle: Truthfulness, compassion and tolerance.
    Last summer I took leave and traveled back to China. I 
arrived in Beijing by train from my hometown on November 30. 
The next day I walked by Tiananmen Square and went to see the 
ceremony of the changing guards of the national flag. I was 
with a group of some 200 tourists when a policeman approached 
me and asked me if I was a Falun Gong practitioner. I hesitated 
1 second and then said yes. Immediately I was taken into a 
police car and sent to Tiananmen Square police station.
    I kept demanding my rights. Nobody answered me. The police 
forced a body search on me first and took Mr. Li's book, Zhuan 
Falun, away from me. I protested and said that they had no 
right to rob my personal belongings for I did not commit any 
crime.
    Because I protested for my right, a policeman said I should 
be punished. Then came three policemen who surrounded me. One 
of them took away my glasses by force and then struck my both 
eyes fiercely with his fists, and the other two punched my 
shoulders and arms and kicked my legs. In 2 minutes I felt 
dizzy, and my left eye swelled like a bulb.
    Then three policemen forced my arms to be crossed behind my 
back, handcuffed me in a special way. One hand came down from 
above the shoulder and the other hand came up from my lower 
back. I cried out with pain. There were another eight Falun 
Gong practitioners, all handcuffed like that, in the room. A 
young lady handcuffed stood on my left; an old lady, over age 
60, also handcuffed like that on my right. For every 4 or 5 
minutes a police shocked each person's neck, hands and kidneys 
with an electric cattle prod.
    This special way of handcuff caused severe physical pain. 
It is usually only applied to criminal offenders in China. 
After a few minutes the pain in my arms and shoulders was 
unbearable. All the other eight Falun Gong practitioners have 
been handcuffed like that for at least a half hour. A middle-
age gentleman, his both hands were swollen twice the normal 
size and purple color. I felt his hands must be injured.
    The police also ordered us to bend down our heads close to 
the ground to increase the physical pain. The old lady on my 
side sometimes stood up to reduce the pain. I could not believe 
any human person could torture an old lady like that.
    About 6 o'clock in the afternoon, I was sent to another 
detention facility in Beijing where I was detained in a room 
together with other Falun Gong practitioners. There were a high 
school teacher, college students, doctors, peasants and 
community engineers. More than half of them were women. Most of 
them were detained because of visiting official appealing 
bureau and trying to appeal for Falun Gong and calling on the 
government to correct the mistake and stop crackdown on Falun 
Gong.
    I ask them how the government would punish them. They said 
that they would be sent back to their hometown and detained for 
at least another 15 days. If they would not sign a pledge 
giving up practicing Falun Gong, they might be sent to labor 
camps. Some practitioners kept talking to the police to explain 
that Falun Gong is a practice for mind and body. We are all 
good people. The government should not treat us like criminals.
    After 6 days of detention, I was released. Later I 
retrieved my passport and returned to America.
    I hope the Chinese Government would respect people's basic 
human rights and the rights guaranteed by Chinese Constitution, 
and thank you, Chairman for giving me this opportunity.
    [The prepared statement of Mr. Zou appears in the 
appendix.]
    Mr. Smith. Thank you very much, Dr. Zou.
    Pastor Her.

      STATEMENT OF PHA HER, PASTOR, LAO EVANGELICAL CHURCH

    Reverend Her. [The following statement was delivered 
through an interpreter.] Thank you, Mr. Chairman and Members of 
the Committee. Because of the language barrier, that I cannot 
speak English, I would ask your permission to let my 
interpreter read a portion of my testimony.
    My name is Pastor Pha Her. I am one of the pastors of the 
Lao Evangelical Church in Vientiane, Laos. My responsibilities 
are to recruit and provide training for new pastors.
    This year marks the 50 year anniversary that the Gospel has 
reached the Hmong-Lao in Laos. My wife and I, along with eight 
other ministers and elders, were invited to attend the 
anniversary celebration that was held in Minneapolis, MN, on 
July 30 to August 4, 2000.
    The Lao Communist Government does not want any religious 
group getting together worshipping openly because they fear 
that organized religious groups are perceived as resistance 
activity against the government. For many year the only way to 
conduct church services for the Christians were to get together 
as a small group inside individuals' homes or outside in the 
jungle where no authorities can see. Basically we are operating 
underground. We provide services for them quietly and 
intelligently during the day or at night.Most of the groups did 
not have Bible, so we have to share one Bible among the group.
    The government implemented a very strict regulation against 
all religious group. More foreign missionaries were detained. 
No international development projects which were affiliated 
with Christians were allow to implement within the scope of 
helping Christians. Thus party government began to harass and 
arrest pastors and elders. The Lao Evangelical Church started 
to shift hands due to constant harassment and duress. This was 
all happening in contradiction to the Constitution of the 
Republic of Laos, which was adopted on August 14, 1991, where 
freedom of worship was allowed. Prime Minister Numhak Pomsavanh 
and President Phumivong Vichit wrote in Article 3, section 30 
that any Laos citizen have the right to worship any religion.
    The Lao Government accused the Christians of being enemy of 
the state. We were forced out of all villages in accusation of 
being Christians who were friends and allies of the United 
States and friends of Christians from foreign countries. As 
Christians we were accused of receiving money from other 
countries to bribe the Lao to convert to Christianity and for 
organizing resistance against the party government. All these 
were untrue.
    The Lao Communist Government falsely accused the Christians 
of not worshipping, revolution, waging war against the Lao 
Communist Party Government and among other religious groups. It 
is simply not true. In fact, the Christians were forced to 
recant their faith or they would be imprisoned without any 
justification. Therefore, there is no peace for the people in 
Laos. We constantly worry about our safety every day.
    Recently U.S. State Department's executive summary stated 
that Laos is among the significant improvements in religious 
freedom. Apparently most of the problems against religious 
freedom occurred among remote villages in Laos. I invite the 
U.S. State Department officials to travel the remote areas to 
observe these atrocities. The State Department had contacted 
the Lao Government to discuss or express the situation, but the 
Lao Government did nothing to improve the situation.
    I personally believe that these situations are getting 
worse. As you will see later in my testimony, in addition, I am 
concerned that more Christians are being arrested and 
imprisoned. Most of the cases involve the Hmong ethnic, 
including some of the recent refugee returnees from Thailand 
refugee camp.
    Since my youth I have served God faithfully, work with 
integrity, served the church righteously and taught them to 
obey and respect the government and its laws. Incidentally, the 
Lao Government has a history of discrimination against certain 
ethnic groups. They have no respect of their own Constitution. 
They arrested and imprisoned many ethnic groups, particularly 
in remote villages, and especially the Hmong. The fact that 
Hmong have several religious beliefs does not mean any religion 
is bad or is against the government.
    Recently the Government of Laos passed out documents saying 
that whoever is a religious person must recant their faith or 
face imprisonment and have their property or farm taken away. 
This year the believers were forced to recant their faith, and 
many were arrested. Many churches were closed and taken over by 
the Lao authority. From a foreigner's perspective, it may seem 
as if there is nothing wrong. The truth is the Christians are 
being greatly oppressed and being forced to imprisonment, a 
list of 70 names of the imprisoned Christians included in my 
testimony. The Lao Government arrests and imprisons Christians 
all over the place throughout the country. In addition, I could 
only account Christian imprisonment. I am sure there are many 
others who are not Christians, but are arrested and imprisoned 
for different reasons as well.
    Before July 15, 2000, a total of 33 churches and service 
places were ordered to close and were locked so no one could 
get in to worship God. It could be more to close and took over 
by the Lao Communist Party by now. A list is attached in my 
testimony.
    If the believers agree to recant, they could avoid 
imprisonment. The authority forced the believers to sign an 
agreement and then would report to high authority that the 
believers did it in their own free will to recant their faith 
without being forced. If anyone questioned or commented about 
it, the government would consider those people as opposing the 
government. They were arrested and were forced to comply.
    After arrival in the United States, I was notified that my 
job as a Bible instructor of the Lao Evangelical Church had 
been terminated, and my name was reported to the authority of 
the Ministry of Interior. There is no guarantee for my safety 
if I return to my homeland, Laos, because I am subjected to 
arrest.
    The last telephone conversation I had with my family was on 
the evening of September 3, 2000. I was informed that after my 
wife and I had left Laos, more churches were locked up and 
guarded by the Communist authority. I now face a difficult 
struggle in my life, especially since we have five little 
children behind in Laos, the ages ranging from 1\1/2\ to 13 
years old.
    My wife and I have determined that it would not be safe for 
us to return to Laos in the meantime. We miss our children very 
much. After my wife heard about the insecurity of our life, she 
cried out about our children's safety and well-being.
    In conclusion, the problem of the religious persecution in 
Laos is a very complicated issue. The search for a permanent 
solution requires the participation of the superpower nations 
like the United States and the international community's strong 
commitment on the part of monitoring the Lao People's 
Democratic Republic Government to make sure that the people 
have freedom. Therefore, I strongly submit to you that it is 
essential for the United States, the United Nations and the 
international community to be actively involved in the search 
for a permanent solution to the political problem in Laos.
    Many solutions to the problem of Laos are just Band-Aids, 
while other solutions get bungled in red tape. The most 
effective way to eliminate the religious persecution in Laos is 
to make sure that the people in Laos have the right to worship 
in their own ways. To provide people in Laos with long-term 
security, a delegation of human rights and religious right 
groups can be organized to go to Laos for the purpose of 
gathering information on various cases happening among 
religious groups, including those in remote areas. This is only 
just a start to cracking down the oppression of Christians 
there. I am afraid that the Lao Communist Government can crack 
down on other religious groups at any time.
    The economic, political, social and religion in Laos, 
however, is seldom able to compete for attention like other 
countries. This will make the resolution to human rights in 
Laos both urgent and compelling into the international 
community. Therefore, I call on the U.S. Congress, all 
countries, other governments and human rights organizations to 
look into this situation in Laos.
    In addition, I would like to recommend the following 
points: First, release those imprisoned as described above 
because they are impoverished, and wives and children are 
suffering. Second, don't force the believers to recant their 
faith, and leave them alone so that they can have a place to 
serve their God. Third, stop the duress and the accusations 
against the believers. Fourth, Lao Government gives back their 
churches and any property that belongs to the believers. Five, 
give back freedom and equal rights of religion to everyone in 
Laos.
    God bless America, and God bless the people in Laos.
    [The prepared statement of Pastor Her appears in the 
appendix.]
    Mr. Smith. Thank you very, very much for your testimony.
    I would like to ask a few opening questions if I could.
    Ms. Shields, in reading your testimony and hearing you 
present it, I thought of Mr. Assad, who pointed out that the 
Middle East negotiations keep the Administration from 
designating Egypt as a country of particular concern. But that 
raises a question of why Uzbekistan? What could be the 
political reason for excluding it, given this reprehensible 
record of repression against, as you point out, pious Muslims. 
And the fact that Ambassador Seiple actually met with one of 
those who has actually been through this certainly must have 
brought home to him the severity of the situation. But when you 
put together the numbers and the systemic and pervasive nature 
of the repression, laid out the way you have, it seems 
inescapable that it ought to be on the list.
    Just looking at the very clear and unambiguous language of 
the statute--and, again, what we do with that in terms of our 
remedy or attempted remedy is left to prudent people to decide 
what is best--but as to the actual designation, do you have any 
speculation as to why Uzbekistan is kept off?
    Ms. Shields. I would hesitate to speculate on behalf of the 
State Department and its motivations; however, I can say that 
the government seems to have loaned its language to the State 
Department, and the State Department for whatever reason has 
adopted it almost whole cloth. And I would really caution 
against the danger of accepting explanations and language 
offered by abuser states that is clearly designed to cover up 
the abuse as actual explanation. For instance, the improvements 
cited in the report give us a lot of trouble. And I would also 
like some explanation of why these are designated as 
improvements.
    One of the three developments that the report points to 
this year was a roundtable held in Uzbekistan to discuss 
religious freedom. That roundtable--I attended that roundtable 
in which government functionaries delivered prepared speeches 
regarding the amount of religious freedom already available in 
Uzbekistan. This was a show put on for U.S. Government 
officials in attendance. It did not include discussion, it did 
not include any recommendations for change, and there were 
certainly no conclusions and no changes made. This is clearly 
not progress and should not pass as such.
    Mr. Smith. Could you speculate as to whether or not you 
think oil or pipelines might have anything to do with it?
    Ms. Shields. I think that--I would not speculate in that 
direction. I think that the United States has decided that 
Uzbekistan will be its island of stability in Central Asia and 
has put all of its eggs into that basket, and will continue 
this policy, it seems, despite the fact that Uzbekistan is 
going down the road of a pariah state and ignoring any and all 
opportunities to make improvements and join the family of 
democratic nations.
    Mr. Smith. Thank you.
    Mr. Assad, any further comments you might want to make on 
Egypt? I would make one passing reference that I raised the 
massacre, the 1999 massacre, myself with President Mubarak when 
he was visiting, and not only did he go into very savvy spin 
control, he immediately pointed out that several of his top 
people, or at least one in particular, Boutros-Ghali, is a 
Coptic, and he immediately walked over and started telling me 
how I had my facts wrong and I was misinformed and that they 
were doing everything they can. It was just a local issue.
    You seem to indicate in your testimony it is much more 
pervasive than that--you might want to comment on that. Egypt 
has been very good, I have to admit, at tamping down the issue 
itself. It is not going to go away, and I think many of us on 
both sides of the aisle are going to continue bringing it up 
because it seems to be a worsening situation.
    The second issue that you bring up, with regard to the 
Sudan, is that the report fails to address the fact that U.S. 
aid is manipulated by the regime to enforce the regime's 
strategy of selective mass starvation. You also point out the 
serious charge of the U.S. Commission in its August 14 letter 
about the Islamic groups requiring conversion as a precondition 
to receiving food aid. Could you elaborate on these two points?
    Mr. Assad. Mr. Chairman, for the first point about 
President Mubarak and the Egyptian Government's official 
response to the Al-Kosheh, it has been unfortunate that despite 
the overwhelming evidence, including photographs and 
documentation by Egyptian human rights organizations and Muslim 
observers in the area, that have documented this case, it 
appears that the Egyptian Government is more concerned about 
its image internationally and does not want the world to know 
that there is a problem. And for--many of the Coptic activists, 
both in the United States and in Egypt, have pointed out that 
Egypt needs to recognize, first of all, that there is a Coptic 
problem and that Copts do have problems that warrant the 
government's attention. So it is not surprising to see 
officials like Minister Boutros-Ghali and the President himself 
denying persecution.
    Often Coptic leaders in Egypt under pressure by the 
government would publicly deny that there is persecution. But I 
think it has been seen very clearly that after the massacre of 
2000, that even the Coptic Pope has been very vocal, which he 
usually refrains from making such remarks in criticizing the 
government and calling for investigations.
    So our hope is that the government leaders would realize 
that this issue, like you mention, Mr. Chairman, will not go 
away, and that there will be a continued interest from the 
international community about what happens to Egypt's Coptic 
community.
    Mr. Assad. Also, a brief comment on your second question 
about the Commission's letter to National Security Advisor 
Sandy Berger. It has been reported to the Commission by two 
different witnesses, one called the Commission from the Sudan 
reporting that there are many aid organizations, particularly 
Muslim organizations operating sometimes out of Khartoum, that 
are withholding--I should mention these organizations are 
recipients of USAID funds--and are withholding aid from 
Christians and coerce them and sometimes force them to convert 
to Islam before that aid is delivered.
    Mr. Smith. Reverend Her, earlier you heard the Ambassador, 
Ambassador Seiple, speak to the situation in Laos, which is 
frankly contrary to your testimony in terms of improvements 
versus lack of improvements. Do you think that Laos ought to be 
considered a country of particular concern to the United States 
and therefore come under the possibility of being sanctioned?
    Implicit in the Ambassador's statement was an assertion 
that in this so-called ``context of diplomacy,'' sometimes you 
might actually hurt people by naming a country as one of 
particular concern, that the people inside of Laos would 
actually be more injured by designating the Laotian Government.
    Reverend Her. I believe that the Laotian Government have 
tried for the last 25 years to solve its own problem and they 
still cannot. And I see like the best way issue that we need 
help from the international community to step in to help solve 
the problem.
    Mr. Smith. OK. Let me ask a question of Dr. Zou. I have 
almost on a daily basis gone to various Web sites to check out 
the latest indignity committed against Falun Gong by the 
Chinese Government. And it is not only the repression that is 
contemptible, the government's ongoing use of academics to 
claim that Chinese public opinion supports the crackdown on the 
Falun Gong could not be further from the truth. The Chinese 
dictatorship is what supports that. The world community doesn't 
support that, it vigorously opposes it.
    In any other context the pretext used by the government 
would be laughable. But there are real victims, people who have 
been incarcerated, such as yourself, who have actually suffered 
torture, as you described that extension of the arms behind 
your back. What should the U.S. Government do? I mean, we--this 
Administration and I say this with sadness, the majority of 
Republicans and a minority of Democrats concurring--have 
stripped away the use of sanctions, in terms of economic most 
favored nation status, or as it is now called normal trading 
relations, which in my view gave the green light to the 
dictatorship to do as they will to the Falun Gong or Catholics 
or Tibetans or anyone else in China. But that won't be the last 
word. There will be a number of us who continue to speak out. 
What should the new Administration do vis-a-vis China, the 
largest country, amidst this in-your-face crackdown? It seems 
to me that we have done so little other than speak out and 
express our concerns. What would be your recommendations as a 
living, breathing witness to the repression?
    I will get those when I return. Regrettably there is 
another vote on the floor that is almost concluded. I do have 
to get to the floor for what I think is a series of votes and 
then our chief counsel, Mr. Rees, will ask a few questions and 
then close the hearing. But I look forward to seeing what your 
recommendations would be to us, because it seems we have 
squandered most of the arrows that were in our quiver, 
economically, to really try to persuade the Chinese to do what 
is right.
    Mr. Zou. Mr. Chairman, because the Falun Gong is self-
improvement of mind in the body and we have no position on 
the--like economic sanction or social measure you can take to, 
you know, to pressure Chinese Government, but certainly in the 
hope the American Government and calling on the Chinese 
Government to engage a peaceful dialogue with practitioners and 
to stop the persecution in China and also to condemn in the 
China's Government and their--the crime they committed and to--
and also in the--I believe the U.S. Government we will make a 
wise decision in like how to, you know, deal with either trade 
or other measures between the U.S. Government and the Chinese 
Government. And that is what I like to say.
    Mr. Rees. I will just ask one question that Congressman 
Smith would have asked if he had been able to remain and then 
we will close the hearing. For all the witnesses, you heard the 
Ambassador's testimony to the effect that putting a country on 
a list of countries of particular concern, even if you could 
technically justify it with the facts--the definition is they 
are either engaging in or tolerating particularly severe 
denials of religious freedom--but if you put them on the list, 
they are going to stop talking to you, and they might get 
worse. If you leave them off the list, maybe you can make some 
other improvement. So his argument is that you may be hurting 
the people that you are trying to help by following the literal 
terms of the statute and putting them on the list if they have 
committed particularly severe forms of persecution or denial of 
religious freedom.
    Now, three of you live or work in countries that are not on 
the list, that are not listed as countries of particular 
concern--Egypt, Uzbekistan, and Laos. Dr. Zou, your situation 
was in a country that we did put on the list. What is your 
reaction to that argument in the context of the country that 
you know about? Would continuing to talk quietly to them be 
more effective or would publicly identifying them as a 
particular severe violator of religious freedom be more 
effective?
    Mr. Zou. My personal opinion, it may not be right, is the 
fact that you put the country who committed those crimes on the 
list itself is not because simply state the fact those in the 
crime you are committed does not like--for example, you mention 
that because of this some government would, you know, hurt 
their people more, but even they are doing that that is not 
because what you are doing, you know, in the state or give all 
the facts and put those facts out. That is because they simply 
do not want to change and correct their mistakes.
    My opinion is you put out those facts and let more people 
know because people all have their conscience no matter their 
government or individuals and they will do whatever they can to 
help those people. If you hide, you know, those facts, that is 
not going to change the situation either. So my personal 
thought is speak of is better way.
    Mr. Rees. Pastor Her.
    Reverend Her. Mr. Chairman, I agree with the Ambassador, 
the illustration that we should peacefully negotiate or talk to 
the government, the government. However, I believe that the 
communist government, they like to be thought peaceful but they 
doing harm behind it. And if the Ambassador want to pursue his 
way, I would like to request that he should monitoring very 
closely with the Laotian Government because the--usually the 
Laotian Government, they will talk to the foreign diplomat in a 
nice way, but when they turn around behind them, what they do 
to the people is an opposite way. So I would like the U.S. 
Government to monitor very closely on the issue.
    Mr. Rees. Thank you.
    Mr. Assad.
    Mr. Assad. Thank you, Mr. Chairman. And I would like to, 
just thinking of Ambassador Seiple's remarks on China when he 
declared that China was decided to put China as a country of 
particular concern, after the failure of all private diplomatic 
initiatives, that were taken in this regard. But it is 
important to remember that while the diplomatic efforts are 
taking place people continue to suffer in these countries. In 
respect to Egypt I again reiterate the fact that persecution 
still exists in Egypt, but I think that the State Department 
report needs to report the facts and make its designations 
irrespective of any strategic or economic interest that we 
might have in some countries. And in many cases we have seen in 
Egypt the Copts church has been raising the concerns with the 
Egyptian Government. We have complaints that date back to 1972. 
But yet the same complaints are being raised today.
    So I think that in these cases, that publicly and honestly 
reporting on the activities of these countries, that might be 
the best hope that these minorities have.
    Mr. Rees. Ms. Shields.
    Ms. Shields. Ambassador Seiple pointed out that designation 
should sometimes be held up when diplomatic initiatives are in 
play. I would question the use of that. The law, as has already 
been pointed out, gives a lot of flexibility for diplomatic 
initiatives, even after a country has been designated a country 
of particular concern. But thinking about Uzbekistan, I can see 
where diplomacy has not worked. The issue of religious freedom 
has been raised there in talks that have not yielded results at 
the highest level. Secretary Albright visited Uzbekistan and 
spoke about religious freedom with President Karimov. She 
emphasized the importance of distinguishing between peaceful 
Muslim believers and terrorists, those who use violence to 
achieve their ends. There has only been a downward slide since.
    I would also say that last year when we saw the first 
release of the religious freedom report, Uzbekistan feared that 
it would make the list. And for the first time, we saw releases 
of religious prisoners, including six Christians, for which 
they have been given ample credit, and some Muslim believers. 
Now, many of the Muslim believers have been rearrested in the 
subsequent crackdown, but we see what effect even the fear of 
being named a country of particular concern can have. And I 
would say that to designate Uzbekistan as a country of 
particular concern would only do a service to the people of 
Uzbekistan, and finally telling the truth and calling it like 
it is.
    Mr. Rees. Thank you. Pursuant to the previous order of the 
Chairman, this hearing is adjourned.
    [Whereupon, at 5:10 p.m., the Subcommittee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                           September 7, 2000

=======================================================================

      
    [GRAPHIC] [TIFF OMITTED] T8683.001
    
    [GRAPHIC] [TIFF OMITTED] T8683.002
    
    [GRAPHIC] [TIFF OMITTED] T8683.003
    
    [GRAPHIC] [TIFF OMITTED] T8683.004
    
    [GRAPHIC] [TIFF OMITTED] T8683.005
    
    [GRAPHIC] [TIFF OMITTED] T8683.006
    
    [GRAPHIC] [TIFF OMITTED] T8683.007
    
    [GRAPHIC] [TIFF OMITTED] T8683.008
    
    [GRAPHIC] [TIFF OMITTED] T8683.009
    
    [GRAPHIC] [TIFF OMITTED] T8683.010
    
    [GRAPHIC] [TIFF OMITTED] T8683.011
    
    [GRAPHIC] [TIFF OMITTED] T8683.012
    
    [GRAPHIC] [TIFF OMITTED] T8683.013
    
    [GRAPHIC] [TIFF OMITTED] T8683.014
    
    [GRAPHIC] [TIFF OMITTED] T8683.015
    
    [GRAPHIC] [TIFF OMITTED] T8683.016
    
    [GRAPHIC] [TIFF OMITTED] T8683.017
    
    [GRAPHIC] [TIFF OMITTED] T8683.018
    
    [GRAPHIC] [TIFF OMITTED] T8683.019
    
    [GRAPHIC] [TIFF OMITTED] T8683.020
    
    [GRAPHIC] [TIFF OMITTED] T8683.021
    
    [GRAPHIC] [TIFF OMITTED] T8683.022
    
    [GRAPHIC] [TIFF OMITTED] T8683.023
    
    [GRAPHIC] [TIFF OMITTED] T8683.024
    
    [GRAPHIC] [TIFF OMITTED] T8683.025
    
    [GRAPHIC] [TIFF OMITTED] T8683.026
    
    [GRAPHIC] [TIFF OMITTED] T8683.027
    
    [GRAPHIC] [TIFF OMITTED] T8683.028
    
    [GRAPHIC] [TIFF OMITTED] T8683.029
    
    [GRAPHIC] [TIFF OMITTED] T8683.030
    
    [GRAPHIC] [TIFF OMITTED] T8683.031
    
    [GRAPHIC] [TIFF OMITTED] T8683.032
    
    [GRAPHIC] [TIFF OMITTED] T8683.033
    
    [GRAPHIC] [TIFF OMITTED] T8683.034
    
    [GRAPHIC] [TIFF OMITTED] T8683.035
    
    [GRAPHIC] [TIFF OMITTED] T8683.036
    
    [GRAPHIC] [TIFF OMITTED] T8683.037
    
    [GRAPHIC] [TIFF OMITTED] T8683.038
    
    [GRAPHIC] [TIFF OMITTED] T8683.039
    
    [GRAPHIC] [TIFF OMITTED] T8683.040
    
    [GRAPHIC] [TIFF OMITTED] T8683.041
    
    [GRAPHIC] [TIFF OMITTED] T8683.042
    
    [GRAPHIC] [TIFF OMITTED] T8683.043
    
    [GRAPHIC] [TIFF OMITTED] T8683.044
    
    [GRAPHIC] [TIFF OMITTED] T8683.045
    
    [GRAPHIC] [TIFF OMITTED] T8683.046
    
    [GRAPHIC] [TIFF OMITTED] T8683.047
    
    [GRAPHIC] [TIFF OMITTED] T8683.048
    
    [GRAPHIC] [TIFF OMITTED] T8683.049
    

</pre></body></html>
